<html>
<title> - [H.A.S.C. No. 111-122]THE 2010 QUADRENNIAL DEFENSE REVIEW</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-122]
 
                  THE 2010 QUADRENNIAL DEFENSE REVIEW

                               __________


                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 4, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
57-833                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, February 4, 2010, The 2010 Quadrennial Defense Review..     1

Appendix:

Thursday, February 4, 2010.......................................    35
                              ----------                              

                       THURSDAY, FEBRUARY 4, 2010
                  THE 2010 QUADRENNIAL DEFENSE REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Flournoy, Hon. Michele A., Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     5
Fox, Hon. Christine H., Director, Cost Assessment and Program 
  Evaluation, U.S. Department of Defense.........................     8
Stanley, Vice Adm. P. Stephen, USN, Director for Force Structure, 
  Resources, and Assessment, J8, The Joint Staff.................     7

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele A., joint with Vice Adm. P. Stephen 
      Stanley and Hon. Christine H. Fox..........................    42
    Skelton, Hon. Ike............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brady....................................................    58
    Ms. Giffords.................................................    59
    Mr. Kissell..................................................    64
    Mr. Nye......................................................    63
    Mr. Reyes....................................................    53
    Ms. Sanchez..................................................    53
    Ms. Tsongas..................................................    62
    Mr. Wilson...................................................    55
                  THE 2010 QUADRENNIAL DEFENSE REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, February 4, 2010.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Let me welcome you to the House 
Armed Services Committee hearing on the 2010 Quadrennial 
Defense Review [QDR]. Before we start, and before I begin my 
opening statement, I just learned that we are to have five 
votes rather soon, and I hope the witnesses will understand 
while we are gone, we shall return because this is a very, very 
important hearing and we really want to know what you have to 
say.
    So we will plow right on. Hopefully, I can make an opening 
statement, Mr. McKeon can make his opening statement and see 
how far along we go from there. Witnesses: Honorable Michele 
Flournoy, Under Secretary of Defense for Policy; Vice Admiral 
Stephen Stanley, Director for Force Structure, Resources, and 
Assessment, that is the J8, The Joint Staff; the Honorable 
Christine Fox, Director, Cost Assessment and Program Evaluation 
for the Department.
    And we want to welcome our witnesses. And let me say this 
is also, in essence, a continuation of the hearing we held 
yesterday with Secretary Gates and Admiral Mullen. The release 
of the report of the Quadrennial Defense Review is always a 
noteworthy event in defense circles and particularly so here on 
our committee.
    In my view, the remarkable thing about the President's 
budget we received yesterday on the QDR is the deep commitment 
they reflect on the part of this Administration to preserving 
the national security of our country. At a time of tremendous 
economic difficulty, unprecedented deficits, spending freezes 
in the other parts of the budget the QDR demonstrates a clear 
need for, and the Department's budget reflects, real growth in 
defense spending this year and into the foreseeable future. 
Now, while we will have our disagreements about some of the 
details I strongly support the Administration's decision to 
request these increases. Congress has a constitutional 
responsibility to provide oversight of and funds for the 
Nation's Armed Forces. The congressional mandate of QDR directs 
the Secretary to conduct a comprehensive examination of the 
national defense strategy, force structure, force modernization 
plans, infrastructure, budget plan, and other elements of the 
defense program and policies of the United States with a view 
toward determining and expressing the defense strategy in the 
United States and establishing a defense program for the next 
20 years. Thus, the QDR outlines the Secretary of Defense's 
thinking on that wide range of topics and provides a sort of 
blueprint on how he sees the Department moving forward to meet 
future security challenges.
    It is important for Congress to understand what the 
Secretary sees as our top national priorities, why, and the 
measures required to deal with them. Then we can make sure the 
required resources are available. But as Congress develops the 
policy positions and makes funding decisions it is quite 
natural that the legislative branch's determination of national 
security priorities may differ from those set forth by the 
executive branch. The framers of the Constitution designed it 
that way. And if we are going to make different choices, both 
in terms of policy and in terms of funding, it is incumbent 
upon us to understand the implications of the available 
options.
    The QDR, this hearing, is important as anything in that 
part of the process, although the primary consumer of the 
report of the QDR is Congress, that is why the reporting 
elements are in the law. I understand it has to be written for 
a wide variety of audiences: the interagency, the international 
community, the defense industry, academia, just to name a few, 
and therefore it is not surprising that it fully pleases none 
of them, never has, never will. Having said all of that overall 
I find the 2010 QDR to be a solid product and superior to the 
last several iterations that we have had, and I compliment 
those who worked on it. And I commend you for your hard work on 
focusing and linking strategy to resources which clearly lays 
out four priority objectives of the defense strategy and six 
key mission areas that require enhancement if that strategy is 
to succeed.
    That is clear strategic direction for our Nation's military 
to not only win today's conflicts but to be prepared for 
tomorrow's threats as well. The QDR recognizes that we must 
continue to be ready to counter more than one threat at a time 
but acknowledges that there are a variety of scenarios beyond 
major regional contingencies that our military is likely to 
face. That is a good step because the potential threats are 
complex. Still, the way the QDR seems to treat the force-sizing 
construct is to advocate for a force that is capable of being 
all things to all contingencies. It is tough to determine what 
the priority is, what the most likely risk we face may be, and 
what may be the most dangerous. It seems that the QDR makes no 
significant changes to major pieces of our current force. This 
makes our task that much more difficult, because although the 
QDR should not be budget-constrained, the plain fact is that 
resources are not unlimited. Ultimately, Congress will need to 
make prudent tradeoffs to meet fiscal realities while buying 
down strategic risk. To do so, we need to know where our 
current and projected force structure is inadequate. The QDR 
should help us understand the consequences of those tradeoffs. 
And my first reading indicates that perhaps it comes up a bit 
short there.
    I am pleased to see that for the first time, this QDR 
elevates the health of the force to a strategic priority. It 
rightly emphasizes the need to address the strains placed on 
our men and women in uniform as well as their families. It pays 
continued attention to military compensation, health care, 
warrior care, as well as family support services. But I am 
concerned that beyond casual mention of a need of greater 
culture and language training, it does not pay enough attention 
to the operational needs of our muddy boot warriors.
    The wars in Iraq and Afghanistan have made it clear that 
the superiority of individuals and small units engaged in close 
combat is essential if the United States is going to win these 
sort of wars. These are most effective weapons. However, when 
the QDR goes on at length about the need to develop high and 
technological capabilities, there is no comparable discussion 
about the need to develop a small arms and other individual 
equipment to preserve the superiority let alone the development 
of innovative means to ensure that these small units are fully 
trained. You know, that is a shame because that is really the 
best way to take care of our people.
    Now, let me turn the microphone over to my friend, the 
ranking member from California, Buck McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 39.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. And I ask that my full 
statement be submitted for the record.
    The Chairman. Without objection.
    Mr. McKeon. Thank you. And I join you in welcoming our 
witnesses here today. I thank you for being here this morning. 
We look forward to hearing your testimony. For some time now 
Secretary Gates has been pushing for balance in the Defense 
Department in an effort to focus the program on prevailing in 
the conflicts of today. In the Secretary's introduction to the 
2010 Quadrennial Defense Review, he writes that his efforts to 
rebalance the Department in 2010 continued in the 2011 budget 
and were institutionalized in this QDR in the out-year budget 
plan. For some time now, Secretary Gates has been pushing for 
balance in the Defense Department in an effort to focus the 
Pentagon on prevailing in the conflicts of today.
    While we commend the Department for its laser focus on the 
wars in Iraq and Afghanistan, I believe efforts to make balance 
a fixture in the QDR and the out-year budget is shortsighted 
and puts the Department on the wrong path for the next 20 
years. Choosing to win in Iraq and Afghanistan should not mean 
our country must also choose to assume additional risk in the 
conventional national defense challenges of today and tomorrow. 
Last April we received a glimpse of the cost of balance when 
the Secretary announced over $50.0 billion in cuts to defense 
programs.
    This year the impact is more subtle but I fear more severe. 
As I told the Secretary yesterday, in my view, the QDR 
understates the requirements to deter and defeat challenges 
from state actors, and it overestimates the capabilities of the 
force the Department would build. This QDR does an excellent 
job of delineating the threat posed by those with anti-access 
capabilities, notably China, but does little to address the 
risk resulting from the gaps in funding, capability, and force 
structure.
    As a result we find an out-year defense plan and QDR that 
basically reinforced the status quo despite serious threats to 
our current capability. Thus, this QDR provides a force 
structure that is built for the years we are in today when the 
purpose of the review is exactly the opposite: to prepare for 
the likely conflicts of tomorrow. One must ask what is new 
here. If this is really a vision for the defense program for 
the next 20 years as the statute requires then why does the QDR 
lay out a force structure for the next five years not to 
mention one that looks a lot like today's force. The QDR is 
supposed to shape the Department for 2029, not describe the 
Pentagon in 2009. My concerns revolve primarily around one of 
the QDR's key mission areas: deter and defeat aggregation in 
anti-access environments.
    In my view this is the mission area which should have 
driven the growth and size and capability of our air and naval 
forces, yet we cannot evaluate whether the QDR has the right 
force structure for this critical mission area because it 
offers no clear force-planning construct and abandons the two 
war strategy. Oddly, the QDR seems to suggest that while this 
threat grows we can make do with less than we previously 
thought. For example, the last stated Air Force requirement for 
fighters was 2,200, but the QDR now reflects a need for 
approximately 1,500 combat-coded fighters with no mention of 
aircraft required for training and test activities.
    Likewise, the budget does not appear to take any steps to 
mitigate the similar fighter shortfall in the Army and Marine 
Corps. Another example of inadequate force structure is in the 
area of missile defense where there is no indication that the 
Navy has increased the requirement or funding for large surface 
combatants to support its increasing role in the ballistic 
missile defense [BMD] mission. This requirement was established 
in 2006, at which time there was no BMD mission for these 
vessels.
    Our fighter and ship shortfall are the most obvious 
examples where this budget and QDR fail to reflect the strategy 
that looks beyond today's conflicts and considers the very real 
emerging threats of tomorrow. I have more questions and 
concerns regarding the QDR that I will address during the Q&A 
[question and answer] session. Once again, thank you for being 
here today, I look forward to your testimony. I yield back Mr. 
Chairman.
    The Chairman. Thank you Mr. McKeon. Madam Secretary, is it 
my understanding that each of the witnesses are to testify or 
just you?
    Secretary Flournoy. Sir, we have submitted a joint 
statement for the record, but we would each like to make an 
opening statement if that is in line with your thinking, but it 
is your call, sir.
    The Chairman. But would it be an opening statement by one 
or three?
    Secretary Flournoy. Of three, if that is--.
    The Chairman. You bet. We will start with you however. You 
are recognized.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Great. Thank you. Thank you, Mr. 
Chairman and Representative McKeon and members of the 
committee. It is a pleasure to appear again before you today to 
speak about the Department's 2010 Quadrennial Defense Review. 
Our efforts in this QDR really have revolved around the 
imperative to reaffirm our commitment to the health of 
America's all-volunteer force, to rebalance our programs and 
capabilities to fight both the wars that we are in today and 
also prepare for future contingencies and to reform how and 
what we buy. With the QDR report released and our written 
statement submitted for the record, I would just like to spend 
a few minutes to highlight some of the key points.
    First, this QDR advances a strategic framework for the 
Department that focuses on priority objectives that are 
critical for the Nation. First, prevail in today's wars, places 
like Afghanistan, Iraq, the broader war against Al Qaeda, 
prevent and deter conflicts, prepare to defeat adversaries and 
prevail in a wide range of future contingencies, and preserve 
and enhance the all-volunteer force. These four priority 
objectives are both timely and enduring. They capture the 
essence of what the Department must do to protect and advance 
American interests, and they constitute the key priorities that 
drive how we think about the overall size and shape of 
America's Armed Forces.
    Second, QDR analysis strongly supports our conclusion that 
the United States requires a portfolio of military capabilities 
that provide maximum versatility across the broadest possible 
and plausible spectrum of conflict. The changes directed under 
the QDR enhance the agility of the force, particularly through 
an increased emphasis on key enabling capabilities. By enabling 
capabilities, I mean the kind of support forces that seldom get 
the attention they deserve but have been in quite short supply 
for today's wars and will remain critical for the future. 
Examples include things like helicopters, UAVs [unmanned aerial 
vehicles], platforms for intelligence, surveillance, and 
reconnaissance [ISR], electronic warfare capabilities, 
communications networks, and enhanced cyberspace defenses.
    Third, this QDR provides the Department with an approach to 
force planning that is appropriate for the world we face, not 
the world we would prefer to face. Today our forces are 
simultaneously operating in Afghanistan, Iraq, Haiti, and 
elsewhere around the world. We need to ensure that our policy 
and our planning paradigms ensure agility rather than reinforce 
rigidity. As we have seen all too often, the wars we fight 
often bear little resemblance to the canonical conventional 
contingencies that had tended to dominate our defense planning. 
We have come to learn at great cost that America's current and 
future adversaries will not conform to conventional ways of 
war, but will more likely use a mix of often asymmetric 
approaches and try to bypass our strength.
    The defense strategy articulated in this QDR reflects the 
reality that U.S. forces must be capable of conducting 
multiple, simultaneous, often long-duration operations across a 
wide range of challenges. This includes prevailing in two 
large-scale conflicts against regional aggressors, but it also 
takes into account other scenarios, such as conducting large-
scale stability operations, defeating highly capable 
adversaries employing cyber and space capabilities, extending 
support to civil authorities in response to a catastrophic 
event in the United States, among others. This range of 
plausible challenges is why the Secretary has focused on the 
need for a broad portfolio of capabilities that are versatile 
across the range of conflict.
    Fourth, our people. Our people are the most precious of our 
military resources. While I am constantly impressed by their 
professionalism, their morale, their effectiveness in the 
field, there are indications that worry us after these long 
years of wars, from post-traumatic stress [PTSD] to increased 
rates of divorce and suicide. For too long, the health of the 
all-volunteer force has been underemphasized in our defense 
planning. This QDR has elevated the need to preserve and 
enhance the force as a core component of our policy, our 
planning, and our force management.
    The QDR, in the fiscal year 2011 budget, proposed a series 
of new programs and investments to shore up the health of the 
all-volunteer force and the families who are making significant 
sacrifices on their behalf.
    Lastly, Mr. Chairman, it is clear to us, and I know it is 
clear to all of you as members of this committee, that the 
Department of Defense [DOD] needs to further reform how it does 
business. This QDR explores several critical institutional 
issues that the Secretary has identified as priorities: 
reforming security assistance to build partnership capacity; 
institutionalizing our rapid acquisition capability; 
strengthening our industrial base; reforming U.S. export 
control systems; and crafting more strategic approach to 
climate and energy issues.
    These issues are critical to how the Department prepares 
and executes national strategy. For eight years we have asked 
our men and women in the front lines to innovate and adapt 
under fire, and they have done so. The QDR argues the 
Department of Defense as a whole must do the same.
    Mr. Chairman, I strongly believe that the congressional 
requirement to the Department to submit a QDR actually helps us 
and the Nation successfully adapt to a post-Cold War world. And 
though we will continue to refine how best to rebalance our 
Armed Forces and reform our Department for complex challenges 
both today and tomorrow, I believe the QDR has been an 
important institutional mechanism to facilitate much-needed 
change. But as you know, there is no such thing as a risk-free 
defense strategy.
    I know I speak on behalf of the Secretary and the 
Department when I ask for your continued leadership and the 
leadership of this committee to help ensure that we prevail in 
today's wars while also preparing for the next generation of 
challenges and enable us to protect and advance America's 
interest in a complex world. Thank you very much.
    [The joint prepared statement of Secretary Flournoy, 
Admiral Stanley, and Ms. Fox can be found in the Appendix on 
page 42.]
    The Chairman. Thank you so much. We have nine minutes yet 
on this vote. One 15-, four 5-minute votes, and probably 
another 15-minute vote, so our witnesses are going do have to 
bear with us. So let's move ahead, and then we will get to Ms. 
Fox. Go ahead, and then we will break. Admiral.

 STATEMENT OF VICE ADM. P. STEPHEN STANLEY, USN, DIRECTOR FOR 
FORCE STRUCTURE, RESOURCES, AND ASSESSMENT, J8, THE JOINT STAFF

    Admiral Stanley. Mr. Chairman, distinguished members of 
this committee, thank you very much for your time and the 
opportunity to amplify the testimony of Secretary Gates and 
Admiral Mullen. But more than that, I would like to thank you 
for the strong support your committee provides to our men and 
women in uniform. Your recent approval of our reprogramming 
request to support operations in Haiti is just one of countless 
examples of the support that you give our men and women in 
uniform every day, and I just want to be thank you for them.
    Now, back to the QDR. I believe the 2010 QDR sets the 
Department on a new path, a path that requires significant 
effort, effort that is ongoing but not yet complete. The QDR 
focuses not just on winning today's fight, but also in the 
complex and uncertain future security landscape and potential 
conflicts the United States and our partners are most likely to 
face in the future. The QDR directly addresses Chairman 
Mullen's top three priorities. First, winning today's fight. 
Second, balancing global strategic risk. And third, preserving 
and enhancing the health of the force. Now, let me amplify on 
the specific priorities.
    First, the QDR appropriately supports our mission to 
disrupt, dismantle and defeat Al Qaeda globally and 
particularly in Afghanistan and Pakistan. Through investment 
and critical enablers such as rotary wing, ISR, and special 
operation forces that have experienced persistent shortfalls 
over the years, winning the fight requires changing our 
capability mix and we are doing it.
    Second, the second priority, balancing global risk in 
today's complex security environment, requires a ready and 
agile force with sufficient capacity and capability across the 
range of military operations [ROMO]. The QDR recognizes the 
importance of developing capabilities to address future 
antiaccess and anti--and area-denial threats. Additionally, the 
QDR focuses on regional forward-based and rotational engagement 
with partners to set conditions that not only preclude conflict 
but establish the security environments that undercut 
extremism. Although we retain the capability and capacity to 
act decisively when appropriate we prefer to partner and work 
with others in major operations. Our forward-stationed and 
rotational joint forces will ensure the ability to both sustain 
forward engagement and rapidly project forces and power 
globally to defeat future adversaries or as in Haiti rapidly 
respond to international crisis.
    His third priority, preserving and maintaining the health 
of the force, begins with taking care of our people. Our men 
and women in the Armed Forces are America's greatest strategic 
asset. The QDR advocates important initiatives to enhance 
warrior and survivor care, reinforcing the urgency to improve 
research and treatment for a broad range of injuries, 
especially traumatic brain injury and post-traumatic stress. 
Additionally, the QDR prioritizes reducing stress on the force 
through family support initiatives and an appropriate focus on 
properly resetting the force.
    Overall, I believe the QDR provides an accurate depiction 
of the future national security requirement. Our challenge as a 
Nation will be properly to resource it. I look forward to your 
questions. Thank you.
    [The joint prepared statement of Admiral Stanley, Secretary 
Flournoy, and Ms. Fox can be found in the Appendix on page 42.]
    The Chairman. I think because of the time, Ms. Fox, we will 
postpone your testimony until when we come back. But we do have 
these several votes so please bear with us and when we resume 
we will ask you for your statement, then we will go into the 
questions for the members. So we will stand in recess until we 
return, hopefully very soon.
    [Recess.]
    The Chairman. The hearing will resume.
    Ms. Fox, you are on.

 STATEMENT OF HON. CHRISTINE H. FOX, DIRECTOR, COST ASSESSMENT 
       AND PROGRAM EVALUATION, U.S. DEPARTMENT OF DEFENSE

    Ms. Fox. Thank you, Mr. Chairman.
    Chairman Skelton, Congressman McKeon, members of the 
committee, thank you for this opportunity to testify before you 
today.
    As you heard a few minutes ago, the QDR concluded that we 
must balance resources and risk across four major objectives. 
Today I will briefly tell you how our defense program supports 
these priority objectives.
    The first is to prevail. To achieve our objectives in Iraq 
and Afghanistan, our military leaders need help to address 
persistent shortfalls. We are expanding our Special Operations 
force by increasing the capacity of gunships, increasing 
intelligence capabilities, adding personnel to the Special 
Operations Command, and adding civil affairs and psychological 
operations personnel.
    We are making significant investments in enabling 
capabilities such as helicopters, unmanned multi-mission 
aircraft, and EA-18G electronic warfare aircraft.
    The QDR points out the critical need for cultural and 
language training. We have added funding to develop and expand 
programs, particularly those focussed on Afghanistan and 
Pakistan.
    The next objective is to prevent or deter conflict by 
helping to build the security capacity of our partners while 
remaining strong ourselves. The program adds funding for the 
Global Train and Equip Authority. We added $1.5 billion to curb 
the threat of weapons of mass destruction [WMD] and improve 
homeland defenses. We directly address the very real threats in 
the cyberspace domain by funding the rapid creation of Cyber 
Command.
    Prepare: We need to be prepared for a wide range of 
contingencies, including the modern, high-tech capabilities 
being developed by other nations. To be prepared for this broad 
spectrum of potential contingencies, we need flexible, 
adaptable, highly capable forces.
    By now you have heard of our efforts to significantly 
restructure and stabilize the Joint Strike Fighter [JSF] 
program. This program is vital to our ability to keep pace with 
worldwide technological advancements. CAPE [Cost Assessment and 
Program Evaluation] played a significant role in the program's 
restructuring. In accordance with the Weapons System 
Acquisition Reform Act, CAPE led the independent cost analysis 
that informed the in-depth review of that program. The budget 
submission fully funds JSF to the CAPE cost estimate.
    The budget submission reflects our commitment to 
modernizing all Army Brigade Combat Teams [BCTs], and it 
supports development of a new ground combat vehicle. It invests 
in shipbuilding, procuring 10 ships in fiscal year 2011. Our 
shipbuilding program is described in detail in the 30-year 
Shipbuilding Plan.
    We added resources to expand the long-range global strike 
portfolio, including a potential future bomber, and we robustly 
funded a dependable missile defense system that moves toward a 
regional defense strategy.
    And preserve: Our fourth major objective is to preserve and 
enhance our all-volunteer force. We have made significant 
improvements to our health care system and benefits. Within 
five years we will have secure data exchange and Web access for 
DOD, Veterans Affairs, and third-party health care providers. 
And we added funding for a variety of family support programs, 
including a significant effort to modernize our DOD schools.
    Of course another objective of the Department is reform. 
Earlier I mentioned the JSF program restructuring and the role 
of CAPE in accordance with the Weapons System Acquisition 
Reform Act. CAPE's analysis informed other significant 
decisions reflected in this budget submission such as the 
decision to shut down C-17 production.
    I believe that this program, a program that I have only 
briefly sketched for you, fully supports the goals of the 
Quadrennial Defense Review. It is focused on the needs of the 
warfighter today and tomorrow. It is a program built on realism 
informed by independent analyses.
    Again, I thank the committee for this opportunity to speak 
with you today and for your continued support.
    [The joint prepared statement of Ms. Fox, Secretary 
Flournoy, and Admiral Stanley can be found in the Appendix on 
page 42.]
    The Chairman. I thank the gentlelady.
    It appears to me that Admiral Stanley and Ms. Fox are 
making their maiden voyage here before our committee. We 
welcome you and hope we will welcome you back many times.
    Doesn't it seem to be a stretch, Madam Secretary, for our 
military to be designated to do all things, whether it be a 
major force on force in the one end and a guerrilla insurgency 
fighting on the other?
    Secretary Flournoy. Mr. Skelton, the force-sizing and 
shaping construct we developed in the QDR is a reflection of 
the complex security environment that we face even now with 
Iraq, Afghanistan, a war against Al Qaeda in many countries, 
the relief operation in Haiti, and it is also a reflection of 
what we anticipate that security environment will look like in 
the future. We have not abandoned the two MTW or two major 
theater war construct. We have gone beyond it.
    So we certainly looked at and tested the force against the 
classic two major theater wars because we think that is still 
an important standard, but we didn't think it was sufficient. 
So we looked at other cases; for example, being able to conduct 
a large stability operation, conduct a major theater war, and 
provide adequate support to the homeland at the same time. We 
looked at another case that involved a major stability 
operation, a medium-sized counterinsurgency operation, long-
duration deterrence in another theater, and extended homeland 
support.
    So the point is we need to test the force to make sure that 
we have explored the full range of possibilities in the future, 
and we draw greater insight as to the different kinds of 
stresses on the force that we may experience. That has 
positioned us to better invest in the capabilities, the 
capacity, and the versatility that we will need for the future.
    The Chairman. Don't you think you need a much larger Army 
and a much larger Marine Corps to do all that you envision? 
Combat skills are perishable, I am told. And to train someone 
up to do--to be a first-class fighter in a guerrilla-type 
warfare and then to transfer that person, that squad, that 
platoon, that company into a major force-on-force where tanks 
and artillery are used extensively, wouldn't you have an awful 
hard time transitioning that soldier or Marine, that ground 
fighter?
    Admiral Stanley. Mr. Chairman, the way I would respond is 
the joint force needs to have these capabilities. Each portion 
of the force does not require them. Obviously we emphasize 
certain capabilities in different portions of force. We don't 
expect our ground forces to be able to operate ships at sea as 
an example. Our Special Operations forces are very well-
skilled.
    One of the challenges we face is learning from the lessons 
that we have gained during the current conflict, which makes us 
really the best counterinsurgency force in the world. How do we 
then incorporate those into our doctrine so that we maintain 
those skills and at the same time not move our capabilities 
away from the ability to deal with one or two regional 
aggressors?
    The Chairman. What are they teaching in the war colleges?
    Admiral Stanley. Sir, it is a combination. We are starting 
to get these lessons into the war colleges. Specifically I 
can't address it, but I would recommend that each one of the 
services discuss that. There are initiatives to make this part 
of our educational curriculum.
    Secretary Flournoy. Sir, could I add a point if I may? One 
of the reasons we put such emphasis on eventually getting to a 
more sustainable dwell time, deployment-to-dwell-time ratio, is 
not only to reduce stress on members of the service and their 
families but to increase the time at home for a broader range 
of training, to be able to reacquire some of the more 
perishable skill sets that may be lost, you know, in time 
deployed on a particular operation. So that is one of the 
driving factors towards getting to a more sustainable rotation.
    The Chairman. Has there been a study or an analysis of the 
size of the Army or Marines to fully contemplate doing what we 
are doing today plus a major force-on-force conflict?
    Admiral Stanley. You are touching on what I consider one of 
the significant shifts in this QDR, and Secretary Flournoy has 
already addressed it, but the idea of we didn't just pick a 
timeframe just beyond the Future Years Defense Plan [FYDP], 
line up two major aggressors or pick a couple of scenarios and 
plan for the capabilities required for those scenarios. We now 
recognize that what we need to do in this uncertain future is 
to plan in a temporal aspect. So we plan for today and tomorrow 
across this whole spectrum of capabilities.
    The Chairman. That doesn't really answer the question I put 
to you.
    Admiral Stanley. Yes, sir.
    The Chairman. This does concern me a great deal. I cited 
yesterday when the Secretary and Admiral Mullen were testifying 
the 12 military contingencies we had since 1977 in this 
country, none of which were anticipated, none of them, and over 
the next 30-plus years, I hope we don't have any. But as sure 
as God made little green apples, there will be some out there 
that we don't anticipate, and that is why I am concerned about 
the size, the education, the training, and the readiness to do 
all these things.
    Admiral.
    Admiral Stanley. Yes, sir. I think your concern is well 
founded, and I won't tell you that there is no risk there.
    The Chairman. I don't want to be in a position ten years 
from now to say, hey, Admiral Stanley, I told you so.
    Admiral Stanley. Yes, sir. The specific answer to your 
question is yes, we have done a study. The scenario cases that 
we picked--and again there are three scenario cases that we 
tested the force against; so instead of just building for a 
capability level, we tested the force against three different 
visions of the future. That emphasizes the flexibility of the 
force that we require. The size of the ground forces was part 
of that, and the size of the force tested satisfactorily 
against those three different scenario cases.
    The Chairman. Ms. Fox, your testimony is to the effect that 
we are looking to the future. However, I do notice a 
substantial cut in research and development [R&D]. I think the 
figure you gave us is about a ten percent cut in research and 
development. Is that not the seed corn for future conflicts?
    Ms. Fox. Mr. Chairman, I don't have the exact cut numbers 
with me today, so I can't comment on the number. But I can tell 
you that R&D absolutely follows procurement. So at times when 
we are investing a lot in R&D, we are looking at new systems 
and sometimes then it goes down as we start to transition to 
procurement. When you look out I think that you will see that 
R&D is a major part. For example, in the aviation plan that we 
submitted, there is a significant investment in R&D.
    Admiral Stanley. Mr. Chairman, could I just comment on 
that? Your seed corn comment deals with, in my mind, science 
and technology. And actually this budget request increases the 
investment we are making in science and technology, which is a 
subset of R&D. The actual R&D reductions that you are talking 
about is principally one program, Joint Strike Fighter. Even 
though Joint Strike Fighter got additional investment in R&D 
over what was planned, there was a program reduction associated 
with the planned program. So there is both an increase to our 
Joint Strike Fighter and a reduction.
    The Chairman. Thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    In following up on what the chairman was addressing, would 
one of those scenarios, one of those three scenarios maybe 
include having the present forces in Iraq and Afghanistan and 
maybe having a major incursion or blowup in Korea? How would we 
handle that?
    Secretary Flournoy. We did look at that kind of scenario. 
And while I don't want to get into classified details in this 
setting, what I can say to you is that in many of those cases 
we found that a lot of the U.S. contribution would be heavy air 
and naval intensive, and there was certainly adequate flex in 
our forces to provide that assistance to allies on the ground 
who were engaged.
    Mr. McKeon. Okay. Are we----
    The Chairman. May I interrupt?
    Secretary Flournoy. We would be happy to come brief you in 
a classified setting on the detailed scenario analysis that 
underscores----
    The Chairman. If you will yield for just a moment----
    Mr. McKeon. You bet.
    The Chairman. It sounds like you are not going to put boots 
on the ground but rely on the Navy and Air Force in such 
situations. Is that the case?
    Admiral Stanley. Again we did three cases. Each case had 
different combinations of scenarios in it. So it is not three 
scenarios. It is three separate scenario cases that include 
multiple scenarios. Was Korea a part of it? Yes. OK, do we put 
boots on the ground in Korea? Yes. The forces that----
    Mr. McKeon. More than we have there right now?
    Admiral Stanley. Yes, sir.
    Mr. McKeon. Where would they come from?
    Admiral Stanley. It is from--so the question is when is the 
operation actually conducted? We plan on the reduction of Iraq 
forces----
    Mr. McKeon. Well, I guess the question I have, Mr. 
Chairman, is say this happened tomorrow.
    Admiral Stanley. Yes, sir.
    Mr. McKeon. We still have the forces in Iraq and 
Afghanistan. Are we going to start loading them on planes and--
? I mean if this happened, and again I understand not wanting 
to talk in details here, but the overall concept I think that 
the chairman first addressed is we have been concerned about 
moving--giving the troops adequate time at home and we are not 
to that point yet. So it means we are already stretched pretty 
thin. And then to say we could have two scenarios at the same 
time going on and we would be able to match, I just think--I 
would like to see that in a closed session----
    Admiral Stanley. I want to be clear. In the near term the 
demand on the force is such that there is significant stress 
so----
    Mr. McKeon. And significant risk.
    Admiral Stanley. Yes, sir. Another operation in the near-
term the size of a Korea would require the Nation to mobilize, 
okay? It would take away our ability to rotate the forces, even 
as little as we are now, one to one. Would we still prevail? 
Yes. Would there be increased losses? Yes.
    Mr. McKeon. Okay. If we could follow that up in a 
classified, I would really like to do that.
    Let me get to another point. The QDR highlights three areas 
of operational risk: One, enabling capabilities; two, the 
building of partnership capacity; and three, securing DOD 
systems in cyberspace.
    Are there any other areas of operational risk?
    Secretary Flournoy. Those are the primary areas that we 
identified, sir. And what we are referring to there is that if 
we fail to make the recommended investments in these areas we 
would be as a result accepting higher levels of risk. There are 
other kinds of risk that the QDR talks about, institutional 
force management and future challenges, but those were the 
primary three operational risks we identified.
    Mr. McKeon. Do our forward-deployed forces face operational 
risk in anti-access environments, in the air and the sea?
    Secretary Flournoy. We believe there are significant 
challenges in the anti-access domain. And part of what we did, 
we had a group within the QDR that focused on that, and we have 
recommended a number of targeted investments that you will find 
in the budget towards bolstering U.S. capabilities to deal in 
that environment. We are investing in long-range strike 
capabilities, developing a joint air-sea battle concept, 
developing underwater unmanned vehicles and capabilities, 
investing in the robustness of C4ISR [command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance], space, cyberspace, and so forth. And each of 
those you can find in the budget, and I am sure Ms. Fox could 
speak to those in more detail if you are interested.
    Mr. McKeon. I see that we are cutting back the Air Force; 
we are not growing the Navy sufficiently, I don't see, to meet 
these risks. And so I just have some real concerns there in 
this area.
    One other point, Mr. Chairman. The force structure outlined 
in the QDR through 2015 is very similar to the force structure 
of the current force. Could you please highlight the most 
significant changes that would carry us out in the future?
    Secretary Flournoy. I think again the force structure 
details some changes in platform numbers, and so forth, and we 
are making substantial investments in new platforms, everything 
from the F-35. We are on a path to eventually invest in a new 
bomber once our study is complete. New SSBN, new UAVs, 
underwater warfare capability ships, Army combat vehicles, and 
so forth. But I would highlight what is even more important 
than the platforms is the investment in the new technologies 
and capabilities that are going on those platforms. Aegis is a 
great example. There is the ship, which is a platform, but what 
is really making the difference is things like ballistic 
missile defense system that we are putting on, the radar, the 
ISR, and so forth. So a lot of this QDR is investing not only 
in the platforms, but really ensuring that we have the most 
cutting edge capabilities on those platforms to enhance their 
capability and enable us to really operate in fundamentally new 
ways.
    Mr. McKeon. So cutting back the number of planes, cutting 
back the number of ships is offset by putting new technology on 
the ships and planes that we have?
    Secretary Flournoy. That is not exactly what I said. I 
would like to ask both the Admiral or Dr. Fox to jump in here 
because they have done most of the force structure analysis.
    Admiral Stanley. So the 30-year shipbuilding plan actually 
provides for growth in the Navy over the size of the Navy we 
have today.
    Mr. McKeon. Thirty-year?
    Admiral Stanley. Thirty-year shipbuilding plan, and that 
actually happens across the FYDP. There is some growth in the 
size of the Navy.
    Mr. McKeon. I think the Secretary said yesterday that he 
felt pretty good about the very, very near future, and when you 
get five years out, he said he felt pretty good, and then 
longer than that is fantasy. I believe that was his quote.
    Admiral Stanley. Yes, sir. Clearly who knows what the 
affordability is going to be out in that timeframe or what our 
capability requirements will be. It is a projection, and I 
won't give it any more credit than that. In the FYDP timeframe, 
the five-year period that you referred to, there is some growth 
in the size of the Navy. There is also some reduction in the 
number of combat coded aircraft in the Air Force, as you have 
discussed. We are shifting the focus over to the unmanned 
platforms such as the Predator and Reaper, which give us an 
attack capability we haven't had in the past. It is also one 
that has proven very critical to the ongoing operations. So we 
think it is a good and prudent investment. So the size of the 
force, considering that new addition, is slightly smaller but 
it is not significant.
    Mr. McKeon. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Admiral, when we do we get to the 331-ship Navy?
    Admiral Stanley. Three hundred and thirteen is the Navy's 
current plan, and it is out far beyond the FYDP, sir.
    The Chairman. Say that again?
    Admiral Stanley. Three hundred and thirteen I believe is 
the----
    The Chairman. Three hundred and thirteen, yes, sir.
    Admiral Stanley [continuing]. Current plan and it is beyond 
the FYDP.
    Ms. Fox. Sir, if I could add, actually in the plan it has 
achieved about in 2020, so 2020, which is not in the fantasy 
land of the 30-year plan and it is more in the----
    The Chairman. For a lot of us, it is fantasy land.
    Ms. Fox. Yes, sir. Well, I understand. But we get to about 
300 ships across the FYDP, and we are able to sustain that for 
a while. It is challenging in the mid-term with the SSBN, but 
it is in the plan, you will see.
    The Chairman. Okay.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you so much for joining us today, and I know it has 
taken time to prepare for this report today. But my question is 
that the QDR states that continued relationships with the 
European Command are integral to our Nation's security. 
Additionally, now that AFRICOM [U.S. Africa Command] has been 
established as a separate combatant command, partnership with 
key African nations would be the foundation of our success in 
Africa.
    With this in mind, what manpower and funding is needed in 
these two areas to ensure that these strategic partnerships 
would be successful? And the reason I ask that, when you were 
testifying, you said that one of the things that we need to do 
is to protect our people. We need to tie that to see what we 
are doing because one of the weakest points that we have has 
been in gathering human intelligence. Are we providing enough 
schools, linguistic schools, and trying to nourish those areas 
to the point where we would be in a position to be able to get 
human intelligence? And maybe you can elaborate a little on 
that today.
    Secretary Flournoy. Let me just speak to underscore the 
importance of the topic and then turn to my colleagues to fill 
in some of the manning and programmatic details. We do believe, 
the Secretary believes, that building the capacity of partner 
states in places like Europe and very much in Africa is a 
critical element of protecting U.S. interests. The more we 
build partner capacity, the more they can operate alongside us 
when we have common interests under threat, the more they can 
deal with their own security environment in their neighborhood. 
We are investing in the ability of the force, not only Special 
Operations who have traditionally had these missions, but the 
capability of the general purpose force to really partake in 
that partner capacity building, particularly through language 
and culture training, also through a sort of ``train the 
trainer'' concept even within the general purpose forces.
    But I would like to offer it to--I don't know--Christine to 
address.
    Mr. Ortiz. Thank you.
    Ms. Fox. Sir, we did take language and culture training 
very seriously in this program in support of the QDR. We have 
added significant funding to allow us to, for example, increase 
the Afghanistan-Pakistan--what is called the Hands Program, 
which is a language and training program that looks at 
immersion language training, and it ties careers to that 
region. We do expect that program to be broadened beyond 
Afghanistan, Pakistan, as we can. We have also done things like 
make a plan that by fiscal year 2015 the Special Operations, 
everything will be out of OCO [overseas contingency operations] 
and into the base because we see that as an enduring need. 
These language programs also we see as base kinds of funding 
issues because of the enduring importance.
    Admiral Stanley. Sir, the other thing I would offer is the 
size of the Africa command staff is around 1,200. If I remember 
correctly, we have fully staffed it. It is manned for that. We 
expect that to continue to evolve as the mission is better 
defined. And I would also highlight that it is not just the 
size of Africa Command that is important here, it is the forces 
that Africa Command has available to execute its mission. So 
the forces are allocated to Africa Command to execute its 
mission. And in the near-term, because of the stress on the 
force that we have today, there won't be many forces for Africa 
Command. As we are able to come out of Iraq, conduct the 
responsible drawdown we have talked about, that will free up 
forces. It will help us execute this vision for Africa.
    Mr. Ortiz. So you do feel very comfortable that what you 
have included in the QDR you are comfortable with it, that it 
will do the job, protect our people, by getting the 
intelligence and do what we have to do?
    Secretary Flournoy. Yes. This is an area of focus and 
investment. I think the capability and the capacity is going to 
improve over time. Obviously, a lot of it lies outside of the 
Department of Defense and includes the broader intelligence 
community, but that has very much been a focus.
    Mr. Ortiz. My time is up. Thank you so much.
    The Chairman. Mr. Thornberry, please.
    Mr. Thornberry. Thank you, Mr. Chairman. Secretary 
Flournoy, you have followed all of the QDRs since the first 
one, and you know that often there are at least two criticisms 
of QDRs. Number one is it is budget driven, not threat driven, 
not related to strategy; it is more of a justification for what 
the Administration was planning to do anyway rather than 
setting a new course. Same criticism you often hear is it is 
not really a 20-year focus document as the statute requires. 
And I have read a number of criticisms about this QDR that 
follows along the same line. I guess my question is, is the 
statute unrealistic in what it is asking a Department of 
Defense to do? I mean, can we ever have a four-year strategy 
document that is based on strategy and threats, not constrained 
by budgets? Can we ever look out 20 years in a document that 
has to get the approval all around that gigantic building? Is 
it unrealistic to expect what the law says?
    Secretary Flournoy. I don't think it is unrealistic. But 
what I would say is that the art of strategy is really matching 
ends, ways, and means. And so what I like to say is the QDRs, 
this QDR, is strategy-driven and resource-informed, meaning it 
is not just a laundry list, a wish list of everything we would 
like to do if we were totally unconstrained, it is a very clear 
direction on strategy and guidance, but then it is informed by 
resources to frame the decisions that we need to make as a 
country, the tradeoffs that we need to make as a country, given 
that we don't have unlimited resources for national security. 
We did--we weren't constrained by that in the sense that we 
looked at lots of alternatives that would increase top line, 
that would shift resources, and so forth. And so the tradeoffs 
of the choices of the QDR were informed by resources but not 
overly constrained by them.
    In terms of the longer-term perspective, our scenarios did 
look out into the future. 2016 was one snapshot. 2028 was 
another. And we pulled those insights forward to really focus 
on refining the plans for the FYDP. That said once you get 
beyond the FYDP in terms of the actual--you certainly need to 
get beyond the FYDP for capability investment. Trying to map 
out 30 years of force structure is extremely difficult given 
that the world will change, your capability opportunities will 
change, lots of things will change. So the vision is very clear 
in the near- to mid-term and it is more aspirational in the 
long-term.
    Mr. Thornberry. I am thinking of the Chairman's questions 
about the appropriate size of the various services, and it does 
seem to me that it makes it more difficult for us to do our job 
and make those tradeoffs about what we are willing to accept 
more risk for, less risk for when you already build the budget 
constraints into the beginning of the QDR.
    So you don't even know what you would like to have to deal 
with those contingencies, you already make those tradeoffs. And 
so we are kind of in a position of take it or leave, you know, 
this thing that you put in front of us. And again, my idea, my 
conception is a strategy/threat-informed document, and then 
through the political process in the yearly appropriation 
authorization bills we may help with the President of course 
with the Administration, make those tradeoffs.
    Secretary Flournoy. If I could, again, I don't think we 
built in the constraints in the front end. And I think once we 
have a chance to brief you on the analysis, what we did is we, 
when we translated the strategy into program and budget we made 
some choices and tradeoffs. But one of the things briefing you 
on the analysis will do is make that transparent to you, and 
you all can decide whether you agree with the tradeoffs that we 
made or whether you would make them differently. We hope we 
will make a compelling enough case to convince you that we made 
them the right way.
    Mr. Thornberry. Let me ask related to that, there has been 
a fair amount of talk about the internal red team by General 
Madison and Andy Marshall. Did they produce documents or 
product? And if so, can we see those?
    Secretary Flournoy. They did produce a couple of memos to 
the Secretary that were very much discussed and used in the 
process. I will have to check on availability in terms of 
whether they are treated as predecisional documents or not. But 
let me get the question to that and come back to you, sir. We 
would certainly like to share as much as we possibly can.
    Mr. Thornberry. I think that would be helpful. Thank you.
    The Chairman. Thank the gentleman. Mr. Taylor, the 
gentleman from Mississippi.
    Mr. Taylor. Thank you, Mr. Chairman. I want to thank all of 
you for being here. Admiral, I am going to direct my remarks at 
you, to you. People often ask me what is the downside of term 
limits and I answer, well, it takes a while to figure out when 
someone is spitting in your ear and telling you it is raining, 
particularly if they got a lot of gold on their sleeve. And for 
quite a few years, I think that people sitting in that chair 
have been spitting in my ear telling me it is raining when it 
comes to getting a 313-ship Navy, including this year. This 
year's budget request, I think we are in about 286 ships, 
about.
    Since Vern Clark, he was saying we needed at least 320. And 
Admiral Mullen said a very minimum of 313, the number you 
quoted. And now you are saying we are not going to fix this for 
possibly two presidencies. You asked for nine ships to be put 
in this year's budget be constructed. We are going to 
commission nine ships. But you have also asked to decommission 
nine ships. The net result of that is zero for this year. It is 
not getting any better.
    And so there are several ways to address that. Number one, 
if those frigates are good enough to give to another nation, 
why aren't they good enough to keep in the fleet for a few more 
years. Particularly for a mission like piracy off of Somalia or 
keeping the small boats away from our ships as they transit off 
of Iran, I would think they would be ideally suited.
    So why does it make sense to take a ship that is good 
enough to give to an ally and retire it today if we need bodies 
out in the sea? The second thing, you know, if a petty officer 
third-class can figure out that we have a vulnerability in the 
Pacific to having our eight oilers sunk in a first-move strike. 
If the oilers don't sail, then the destroyers and the cruisers 
don't sail, because they have to refuel every three to five 
days. If the destroyers and the cruisers don't sail, then the 
carrier can't sail alone. Where are you addressing that in the 
QDR? That is a vulnerability that I guarantee Admiral Wu is 
aware of, a petty officer third-class is aware of, so why 
aren't we addressing it. That is a conventional threat again 
that you don't mention whatsoever, and it needs to be 
addressed. And I very much agree with Secretary Mabus's desire 
to minimize the dependence on foreign oil. But he does so by 
just using biofuels. You have still got that threat; you have 
still got to deliver that biofuel. And I think the Seapower 
Subcommittee, whether it is Chairman Bartlett or myself, has 
made it abundantly clear that whenever possible, we want to 
minimize that threat by putting nuclear power on those ships. I 
don't see any effort on the part of the Navy to do that.
    So the third thing is I just had a quick conversation with 
our chairman and I just want to put a shot across your bow. 
Expect language from this committee that says for every surface 
combatant you want to retire, you had best have two new ones in 
the budget because if you won't do what is a logical thing to 
do on your own, then it is going to take a congressional 
mandate to do it. So I would like to hear you respond on that 
please.
    Admiral Stanley. Sir, the first issue really is a broad 
issue obviously. And first off, I am going to encourage you to 
address this with the Navy. They will be able to give you a 
much more definitive answer. You specifically talked about the 
retirement of the FFGs, and was that the right thing, given 
that we are below a 313-ship Navy. What I would say is that the 
FFGs don't have the capability that we want in this flexible 
force that we are looking for. You specifically spoke about 
their capability being sufficient for specific operations like 
pirate operations and such. And that is certainly valid. But 
what we are looking for is a force that is just flexible across 
a wide range of contingencies that would be more applicable to 
our vision for the Littoral Combat Ship [LCS]. The size of the 
force really sets the rotational forward presence posture that 
we can have. To keep the same number of ships forward with a 
smaller force requires the same thing that the Army is doing 
right now, less time in dwell, okay. So there is a risk there. 
If we are able to have a larger force, afford a larger force, 
there is less risk, so I don't argue the point.
    As far as how are we going to protect the force, this gets 
into the Navy's plan for sea shield. That is some of the 
capabilities we are trying to add to the platforms that are 
going to be part of the battle group to help protect, you 
specifically highlighted oilers. As far as your point on 
nuclear power, nuclear power is very important to us. It is 
also very expensive. It is an upfront decision versus a long-
term investment. So additional nuclear power is good, it is a 
very flexible power source for our fleet but it is expensive, 
sir, and I understand your push from the committee.
    The Chairman. This needs a lot more thought, Admiral, and I 
think we are going to do it on this side if it is not going to 
be done on your side. Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, Madam Secretary, good 
to see you. And you mentioned that we did not have unlimited 
resources and the Chairman mentioned something wisely said that 
this is about prudent tradeoffs in resources. I am sure all 
three of you would agree with that. Also you would agree that 
in part you are here to help us make those prudent tradeoffs in 
terms of resources. Well, some facts that we have had over the 
recent hearings are you have just heard from our shipbuilding 
plan we are probably a $2.0 billion to $4.0 billion shortfall 
annually.
    OMB [Office of Management and Budget] says that currently, 
based on the track run, we are probably looking at about 270 
ships in the Navy. We know the Chinese now have 290 ships. We 
know we have got a $3.0 billion shortfall on the maintenance 
needs at our shipyards if we are to maintain our ships. If we 
can't maintain them, we can't get to the goals that we have. We 
know from testimony we had yesterday we have got an $18.0 
billion shortfall on our F-18 strike fighters. But assume that 
is too high. Let's take a third of that and just say $6.0 
billion.
    The other thing we know that China has gone ahead of us now 
on the number of ships in their Navy. They have increased their 
military spending again by 14.9 percent, they have got 128 acts 
of cyber aggression per minute tied to Chinese Internet sites, 
they have destroyed a PRC [People's Republic of China] weather 
satellite, they are developing kinetic and directed energy 
weapons for ASAT [anti-satellite] purposes, and they account 
for 93 percent of the global supply of rare elements used in 
technologies, in particular guidance systems for missiles, and 
yet the White House National Security Council [NSC] that works 
with you in developing the QDR downgraded China to a priority 
two level for intelligence against the protest over 
intelligence chiefs because of an allocation of resources. Now, 
the reason I ask you that is because yesterday Admiral Mullen 
also talked about moving a carrier to Mayport, Florida, and he 
based it on the strategic dispersal plan. And in the strategic 
dispersal plan it was based on three things. First of all, the 
possibility of an accident. Well, for an accident like that to 
occur we are talking about a one mile by 60-foot high debris 
pattern. Just isn't going to happen.
    The second thing was natural disasters. And if we could put 
up on the screen this plan. That is a site and a chart of 
hurricanes hitting Hampton Roads, which could be a natural 
disaster. Now if you would put up chart two. That is a site of 
them hitting Mayport, and it is a huge difference between the 
two of them, so it is not a natural disaster.
    So the third thing is a nuclear attack that could happen. 
But if that risk there is for a nuclear attack, I am far more 
concerned about the 1.7 million people living in Hampton Roads 
than I am with the carrier, and maybe we should be allocating 
dollars and cents to beefing up our sensors in a preventive 
attack there.
    So my question for you, now, Madam Secretary, allocate for 
us if we have those limited resources, if I have got that 
shortfall that I am looking at in shipbuilding, in maintenance 
needs, in our strike fighters, and I can't do the intelligence 
needs that I need for China, and then I am talking about as 
much as $1.0 billion to Mayport, allocate for me the priority 
between those items if we have limited dollars or do we just 
do, as the Chairman, I will tell you he did yesterday, he just 
punted it. And basically when you punt it, it means it is just 
raw political power as opposed to an analysis of what we do. 
How would you allocate those priorities of spending needs in 
the items that I have just listed for you?
    Secretary Flournoy. Sir, I would come at this by saying, 
first and foremost, that we have taken into account the 
military investments of a number of countries, including China. 
And in the QDR we have put a real emphasis on ensuring that we 
have the capabilities we will need in the future to operate 
effectively on the global commons in anti-access environments. 
And so you will see very clear investments in long range strike 
capabilities, in subsurface warfare, in resiliency of our 
basing infrastructure, in space assets, in cyber assets----
    Mr. Forbes. My point is that we have shortfalls in these 
areas. How would you allocate the resources in a priority one, 
two, three, four, five between the ones that I have just listed 
to you, which we all agree are shortfalls?
    Secretary Flournoy. Sir, I think the prioritization 
relative across the capabilities is laid out in great detail in 
this report.
    Mr. Forbes. Madam Secretary, that is why you are here. I am 
asking you if you can lay it out for me in these priorities 
that I have given to you, or do we just simply say we are not 
going to do that, we are going to leave it to raw power and how 
that happens. What are those priorities between the shortfalls 
that I have given to you if we can come up with an extra couple 
of billion dollars?
    Secretary Flournoy. Again, I wouldn't do it platform by 
platform, I would do it by capability to deal with specific 
risks and challenges, and that is the analysis that we have 
done. Again, a lot of that gets into very classified arenas. I 
would like to come back and brief you on exactly those 
tradeoffs and how we have made them. But it is best done with 
the scenarios and discussions of specific countries and 
challenges.
    Mr. Forbes. Thank you, Mr. Chairman.
    The Chairman. Thank you. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you all for 
being here. Madam Secretary, on page 71 of your report you talk 
about the interagency process. I am just going to read this 
paragraph. ``Finally, the Department of Defense will continue 
to advocate for an improved interagency strategic planning 
process that makes optimal use of all national instruments of 
statecraft. The complexity of 21st century conflicts demands 
that the U.S. Government significantly improve interagency 
comprehensive assessments, analysis, planning, and execution 
for whole-of-government operations, including systems to 
monitor and evaluate those operations in order to advance U.S. 
national interests. One solution is to allocate additional 
resources across the government and fully implement the 
national security professional (NSP) program to improve cross-
agency training, education and professional experience 
opportunities. This will help foster a common approach to 
strategic and operational planning and implementation, 
improving prospects for success in future contingencies.'' That 
is a paragraph from your report on page 71. Mr. Thornberry made 
mention of this, the QDR being a statute requirement for the 
Department of Defense.
    Perhaps this will come from your think tank experience and 
your experience now after one year on the job. And my only 
question is, you can have the remainder of my time to talk 
about it, would we better help our country rather than have a 
Quadrennial Defense Review to have a Quadrennial National 
Security Review that required all the agencies of government to 
put their heads together and present us with a document that 
got into this balancing of resources and strategy that involved 
all of the agencies? And you can take the remainder of my time 
to discuss it.
    Secretary Flournoy. Sir, thank you very much. This is a 
topic near and dear to my heart. I actually think we need both. 
I think it would be very helpful to have a mandate to do a 
Quadrennial National Security Review and also a QDR. Absent 
that requirement I would say this Administration has sort of 
taken upon itself to conduct the national security strategy 
review, which is almost complete, the QDR, the QDDR, which is 
the Diplomacy and Development Review that State is conducting, 
a QHSR, which is the homeland security review, an intelligence 
review and a number of other space and nuclear, cyber and so 
forth.
    We have done those in parallel, and we have done those, 
even though we are not required to do so, in a highly 
interagency fashion. I think this QDR had much more interagency 
transparency and participation and input than any of its 
predecessors. And the value of that is that when it comes time 
to putting forward departmental budgets we are actually getting 
a lot more synergy across departments and starting to get a 
more comprehensive and balanced approach. One of the things you 
will hear Secretary Gates consistently advocate for is greater 
investment in our civilian partner agencies, particularly the 
State Department and USAID [U.S. Agency for International 
Development], to build up their professional cadre, to build up 
their expeditionary capability so that they can operate more 
effectively alongside the U.S. military when it is deployed to 
defend our interest overseas.
    Dr. Snyder. If we were to do a statutory requirement for a 
Quadrennial National Security Review, it sounds to me like what 
you all have done is you have got reports from the stovepipes. 
You say you thought it would be helpful. What would you suggest 
we put in such a requirement?
    Secretary Flournoy. Well, the reporting requirements are in 
stovepipes, that is true. But what we have tried to do is put 
together a process that is forced integration. So for example, 
when you see assumptions about homeland security in the QDR, 
they will match the planning assumptions that are in the QHSR 
that comes out of the Department of Homeland Security. But a 
statutory requirement would sort of formalize what we have been 
de facto working towards in our process, which is greater 
integration across agency programs and budgets.
    Dr. Snyder. My result was a document that would have more 
than one paragraph on interagency.
    Secretary Flournoy. I think the challenge would be how 
would Congress receive and deal with that given the cross-
jurisdictional nature of a lot of the results that would come 
out of a review like that.
    Dr. Snyder. I am sure the quality of the report would be so 
good that we would receive it well. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Madam Secretary, last 
October, I joined a letter with my colleagues to the Secretary 
of Defense urging that he take steps to preserve the Minuteman 
III industrial base with regard to the sustainment of Minuteman 
III system through the year 2030, which is, as you know, the 
program of record within the Air Force. You replied on behalf 
of the Secretary, and I have the letter that was back in 
November you sent me. And in your reply, you indicated that the 
Department of Defense would be in consultation with the 
Departments of State and Energy and undertaking a Nuclear 
Posture Review and this review would address that issue, which 
is supposed to come out later on this spring I understand.
    I was comforted to know at least the Departments of State 
and Energy were consulting with Defense on this vital issue. My 
question is what about NASA [National Aeronautics and Space 
Administration]. To your knowledge--I asked the Secretary 
yesterday and he had no knowledge of any consultation. But to 
your knowledge has the Department of Defense consulted with 
NASA or vice versa, has NASA consulted with the Department of 
Defense on the 2011 budget impacts on the defense industrial 
base with regard to the large-scale solid rocket motor [SRM] 
production.
    Secretary Flournoy. Sir, I believe those consultations have 
happened in the context of both the development of the national 
space policy and the space posture review which is going on in 
parallel with the----
    Mr. Bishop. On what level are those discussions held?
    Secretary Flournoy. I think at working level so far. The 
Space Posture Review is a little bit behind the QDR. It is 
going to be released in June. The Nuclear Posture Review is a 
little farther ahead. That will come out March 1st.
    Mr. Bishop. That is a good thing to hear. But I also have 
in here the part of the solid rocket motor capabilities report 
to Congress that was last June. And in that in the executive 
summary on page 47 it says delays in the NASA Ares program 
would have a significant negative impact on the large solid 
rocket motor prime contractors industrial base and on some of 
the SRM subtier base, specifically material suppliers. So the 
key phrase was ``significant negative impact.''
    So the question is this report said a delay in NASA's Ares 
program would have a significant negative impact. What would 
the cancellation of the Ares program have if the 
Administration's recommendation goes through as part of the 
NASA budget. If a delay is a significant negative impact on 
solid rocket motor industrial base, what is an outright 
cancellation going to do to the solid rocket industrial base?
    Secretary Flournoy. Sir, I will have to get back to you 
with an answer on that. I do not have an answer off the top of 
my head, but I am happy to do that.
    Mr. Bishop. Will the Nuclear Posture Review you mentioned 
in reply to the letter and you just talked about address the 
impacts on the industrial base.
    Secretary Flournoy. I am sorry, could you repeat the 
question?
    Mr. Bishop. The review that you are talking about having 
the posture review that you mentioned earlier, will this 
address NASA's impact on the solid rocket motor industrial 
base?
    Secretary Flournoy. Yes, this issue will be addressed in 
the NPR, and it will probably be also mentioned in the Space 
Posture Review.
    Mr. Bishop. I appreciate that very much. That is very 
important to me. And once again, if a delay is a significant 
impact, a cancellation has got to be a little bit more than a 
significant impact.
    Secretary Flournoy. Yes, sir.
    Mr. Bishop. Thank you, Madam Secretary. I yield back Mr. 
Chairman.
    The Chairman. The gentleman from Georgia, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. Thank you all for 
the report and for your testimony. It would be very helpful to 
me, and I think the committee to hear just a sort of one, two, 
three, four list of ways in which we are changing course from 
the prior QDR, the prior plan. I imagine you could do that 
somewhat off the top of your heads. You know, to me, at least 
since you are so familiar with this you could say to me at 
least I think the most significant changes are one, two, three. 
But it would be very helpful to us if you could maybe prepare a 
spreadsheet that details the ways in which we are changing 
directions in this new QDR compared to where we were.
    The committee has a good sense, you know, year to year, of 
where we are headed and what the major trends are, and what we 
need to do in our planning to anticipate the, you know meeting 
the future needs of defense. And so since we know where we are 
it would be very helpful if you just sort of told us how this 
changes things. Madam Secretary.
    Secretary Flournoy. We are happy to come back to you with a 
written response. But I will just speak from my perspective. I 
think there are several things. One is the emphasis that has 
been placed on institutionalizing lessons-learned from the last 
eight years of experience and ensuring that we actually invest 
in the kinds of enabling capabilities that give the force real 
agility both today and in the future. That emphasis on agility 
and enablers is really very different. Second, to the extent 
that we look across the full range of conflict and into the 
future, the emphasis on asymmetric approaches, the kinds of 
warfare that are sort of outside of the canonical conventional 
paradigm but that we think are much more likely to define the 
future operating environment, the QDR's emphasis on that is 
different.
    The third thing I would cite is elevating the emphasis on 
taking care of our people, not just--it is something that every 
QDR says, but to actually make it a strategic imperative and a 
strategic objective in our strategy and to put program and 
budget behind that, I think that is very new. I will invite the 
Admiral and Dr. Fox to also offer their answers.
    Admiral Stanley. I would reemphasize something I said 
earlier, which is the idea of the recognition in the priority 
of temporal planning in our capabilities development. What we 
need for a time period beyond the FYDP is different than what 
we need today. That is a huge change, and it quite honestly 
excites me, and I think it is the right thing for our Nation to 
be pursuing. The second thing I would emphasize is the 
recognition of the importance of what I would call Phase Zero 
and Phase One operations, our peacetime operations, rotational 
presence, partner capacity building, those types of operations. 
A small investment here can prevent the wartime requirement in 
the future. So I think that is a huge shift.
    Mr. Marshall. If I can quickly interrupt. This is a 
consistent theme with me trying to encourage as many dollars as 
possible to be in our defense budget, accomplishing those kinds 
of objectives, because we just politically cannot defend them 
when they are in State and elsewhere. Unless they are described 
as, you know, those kinds of investors are being described as 
developing our security, furthering our security interest, they 
are just not fundable in the long-term. Too easy to attack.
    Admiral Stanley. Yes, sir. And the last thing that I would 
emphasize is the idea of the rotational requirement and how 
important it is for us to be out there not just in the Navy, 
but across all of the services engaging with our allies and 
partners in building those security--that is it, sir.
    Ms. Fox. Sir, I would only reemphasize the importance of 
the enablers as emphasized in the QDR and in the program, 
whether it is unmanned aircraft or ISR, electronic warfare or 
language and authorities as you were just describing. I think 
all of those enablers have been identified in the current wars 
that we are in as being vital and we anticipate that they will 
be vital in the long-term. The other very important emphasis of 
the QDR is the need for flexible adaptable forces because the 
future is so uncertain, as many of you identify.
    Mr. Marshall. If I could, in just the last couple of--if in 
coming back to us with something in writing you could 
prioritize these. You know, here are the biggest changes to the 
smallest changes and cover them in some detail, here is where 
we were, here is what we are changing, and maybe add this is 
why we think these changes are terribly important. Thank you, 
Mr. Chairman.
    The Chairman. Thank you. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. First, just a 
comment. I want to express a concern about the continuation of 
a policy from the last Administration that seems to rely on 
nation-building as a principal tool for achieving America's 
national security objectives. And Mr. Chairman, I think you 
raised a point about whether or not counterinsurgency warfare 
has a detrimental effect on our conventional war fighting 
capabilities. As someone who fought, was a combat leader in the 
first Gulf War, but also served in the war in Iraq in 2005 and 
2006, I want to tell you it definitely does have an eroding 
effect on the conventional combat capabilities of our ground 
forces in their inability to exercise their combined arms 
capacities, and I think that that is a very significant thing.
    I want to ask a question in concern about the United States 
Marine Corps and the future and that, whether or not the United 
States Marine Corps is just going to be a second land army or 
whether or not in your view in this QDR is there a significant 
emphasis on amphibious warfare, is there enough emphasis or a 
significant emphasis on forced entry capability, and I wonder 
if you can address that, as well as what in your mind, I have a 
concern that there is not enough emphasis on this, what will 
happen in terms of the Expeditionary Fighting Vehicle [EFV] and 
in terms of platforms such as our amphib Navy, and I wonder if 
you can address that?
    Admiral Stanley. Yes, sir. First off, does the QDR 
emphasize amphibious warfare, and does this budget support it. 
I think the answer to that is yes, that there is clear 
agreement that we will require forced entry capability for the 
Nation for the future and continues to invest in that. The 
question really gets at how much is required, and that is much 
harder.
    And you know, we look at the different scenarios and how 
they stack up to try to determine what the size of that 
capability needs to be. I can tell you that the professional 
military advice of the commandant is that the Marine Corps is 
too heavy. We have to win today's war, he is not trying to say 
that, but as that completes he wants to restore the mobility 
and the rapid deployability of the Marine Corps has been just a 
core ethic. EFV plays into that. The program was delayed a 
year, as I am sure you are aware. That was viewed as a prudent 
risk reduction effort, not as a shift away from EFV. So my 
sense is amphibious warfare is here with us, it will continue 
to be a supporter, and EFV will be a part of it.
    Mr. Coffman. As well as forced entry capability?
    Admiral Stanley. Yes, sir.
    Mr. Coffman. Very well. I just want to echo from my first 
statement that I believe that we can influence the affairs in a 
given region, a failed nation-state, by using our special 
operations capability as opposed to using our conventional 
warfare capability, and I hope that that is something that is 
seriously looked at. I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentlelady from 
Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. And thank you all 
for your testimonies today. I want to ask a few questions as 
the QDR relates to the military buildup on Guam. And I note, 
that the QDR states that DOD plans to turn Guam into a hub for 
security activities in the region. I believe that this is a 
smart strategic move on behalf of DOD. However, I would like to 
get more details on just exactly what does this mean.
    Does the DOD envision security above and beyond what is 
already currently outlined in the DEIS [Draft Environmental 
Impact Statement]. I am interested in learning about the 
sequence of events for the military buildup on Guam given the 
DOD's evolution of engagement with the government of Guam--or 
the government of Japan by giving them flexibility to relook at 
the international agreement. The community has serious concerns 
about the EIS, and I think one of the key ways to mitigate 
these concerns is to extend the buildup timeline so that we can 
fix major issues in the EIS and also give Japan time to 
implement their end of the bargain. Is this something that you 
would consider, and if not, why not?
    Secretary Flournoy. I think in the QDR we reaffirmed the 
plans that are in place for Guam consistent with the 
realignment agreement that we have reached with the government 
of Japan. I think that given the change of administrations 
there, we are very much interested in reaffirmation of their 
commitment from their side. And as we get that we will be 
refining the implementation details. I will also say that the 
QDR has recognized the importance not only of Guam but the 
western Pacific more broadly. And one of the follow-on studies 
that is being done is to really look at how do we expand both 
our training opportunities and our bilateral and multilateral 
partnerships in that region with Guam as a real hub for that, 
but looking at other areas as well in terms of increasing our 
opportunities for training and for partnership.
    Ms. Bordallo. Thank you. I have a couple more questions, so 
I want to get through with this. Additionally, I note that the 
QDR states finally the United States seeks to develop 
additional opportunities for joint and combined training in the 
Pacific area that respond to the need for readiness. Can you 
elaborate on this finding in the QDR? What opportunities for 
training are envisioned for the western Pacific? There is a 
section 2837 of fiscal year 2010 NDAA that requires a report to 
Congress on training and readiness requirements. Will this 
report address specific training needs for the Marines in the 
western Pacific while following the tenets of the QDR?
    Secretary Flournoy. We are looking at the training 
requirements first and foremost for the Marines that we will be 
putting on Guam but also for the other naval and air forces 
that are there. And again, this is part of a holistic review of 
our posture with a particular emphasis on the western Pacific, 
and we will be reporting back to you on those results in the 
coming year.
    Ms. Bordallo. Good. And my final question, I would like to 
further clarify an answer that I got from Secretary Gates 
yesterday about long-range strike capabilities, specifically 
the development of the Next Generation Bomber. What is the 
timeline for conducting and completing this study which is 
outlined in the 30-year aviation plan?
    Secretary Flournoy. I would like to defer that to Dr. Fox.
    Ms. Fox. Thank you. The study is ongoing now and we expect 
to have results in time to start to inform our activities for 
Palm 12. This is going to be part of a family of capabilities 
that we are going to be looking at and so we will be moving out 
on that very smartly.
    Ms. Bordallo. Very good. All right. Thank you everyone, and 
I yield back the rest of my time.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And Madam 
Secretary, and Ms. Fox, I guess my concern and question will be 
more in your area of expertise. I very much appreciate Admiral 
Mullen yesterday, and Madam Secretary, you today talking about 
your concern of family and troops and family and suicides, 
divorces. I have Camp Lejeune in the district I represent, and 
we do a tremendous amount of work. I have one young man who 
served in the Marine Corps that is averaging about almost 10 to 
15 new cases every month of families who are in a bad situation 
from PTSD [Post-Traumatic Stress Disorder] to TBI [Traumatic 
Brain Injury]. I hope as we go through this process of 
reviewing the QDR, and I would like you and Ms. Fox to tell me, 
are we really prepared for what is coming.
    I had the opportunity, as any member would, you yourself, 
to read the book, The $3 Trillion War by Joe Stiglitz realizing 
that after they leave the military, they go into a veteran 
health care system. That is not what this is all about. But the 
numbers that I believe are growing as our men and women are 
coming back from Afghanistan and Iraq, Admiral Mullen said 
yesterday, five, six, seven deployments, and as long as we are 
the deployments are going to be seven, eight and nine and they 
come back with the families. One problem I have seen that 
concerns me and it is not really the military's fault, but we 
are not able to certainly recruit graduates of psychiatry 
schools to go into the military, so we are having to contract 
with other sources. In this report as we go into it, do you 
feel, and I know you do feel that you have done the very best 
job you can, but are we at a point that we are being realistic 
with the stress on the serviceperson and the stress on the 
family.
    And let me give you one example, then I want you to 
respond. This committee is probably tired of hearing me say 
this, but it is a story that I will never forget. In 2007, 
National Reading Day we were home for Easter, and I was able to 
read to the kids at Johnson Elementary School at Camp Lejeune. 
And as I closed, I let the kids ask me questions. The last one 
I said this is my last question. And he looked at me and said 
my daddy is not dead yet. That is out of the mouth of a six-
year-old child, my daddy is not dead yet. Please, in the minute 
and a half that is left, tell me that we are doing what has to 
be done, what needs to be done, or we need to do more. Thank 
you.
    Secretary Flournoy. Sir, Secretary of Defense Gates is 
personally seized with this set of issues. I think every time 
he visits troops and families he comes back with a new list of 
we have got to do better at X, Y and Z, and I have seen it 
every time. I think one of the things we have done is intensify 
the partnership between the Department of Defense and the 
Department of Veterans Affairs [VA] because it is really going 
to take that team effort to deal with the full range of 
challenges. It is a significant area of leadership, focus, and 
attention and I think investment in the QDR. It is going to go 
way beyond the QDR and continue to require that attention. But 
let me just turn it over to Dr. Fox to give you some of the 
programmatic details.
    Mr. Jones. Thank you.
    Ms. Fox. Sir, we have increased the unified medical budget 
to over $50.0 billion and in this budget. And in that over 
1,000 additional civilian full-time equivalents have been added 
for Wounded Warrior programs such as the ones that are 
necessary to treat the issues that you are concerned with, as 
are we of course.
    As Secretary Flournoy already talked, the electronic 
records and information sharing that should help facilitate the 
transition from the Defense Department to VA and to third-party 
health care as well. We are looking at families very carefully 
and we have $8.8 billion in the budget for family programs. A 
noninsignificant effort, this year was to identify that our DOD 
schools needed to be increased, and so we will be refurbishing 
103 of those schools by 2015. And we are in the OCO adding 
forces, 22,000 for the Army, and OCO that started last year 
continues this year, also 4,400 additional forces funded out of 
the OCO funds for Navy because of their individual augmentees. 
And this is designed to start to relieve a little of the stress 
on the force. The issue is, as the Secretary said, it is very, 
very important to the Department.
    Mr. Jones. Mr. Chairman thank you for the time.
    The Chairman. Thank the gentleman. Mr. Nye, the gentleman 
from Virginia.
    Mr. Nye. Thank you, Mr. Chairman. Thank you to our 
panelists for being here today. A number of members of this 
committee today have expressed concerns about our force 
structure and how to best go forward. In fact, Admiral Stanley, 
you said today that a 313-ship Navy is far beyond the FYDP. In 
a time when we are facing major shortfalls and key defense 
programs such as shipbuilding and ship maintenance accounts and 
interestingly enough, coming just four years after a background 
which the Navy was unable to close many of the installations 
that it had recommended closing, I was disappointed to note 
that there is a sentence in the QDR that calls for homeporting 
an East Coast-based nuclear aircraft carrier in Mayport, which, 
of course, we know it would require building a fifth nuclear 
carrier homeport in the United States, even at a time when our 
carrier fleet is about to be reduced to its lowest level in 
decades.
    We saw a December 3rd draft of the QDR that suggested that 
providing an alternative port to dock an East Coast aircraft 
carrier to mitigate the risk of a manmade or natural disaster 
was sensible, and then a few weeks later, we saw the final QDR 
recommended that instead of an alternative port, actually a 
homeport for an East Coast carrier be established at Mayport.
    So my question, Madam Secretary, is, it appears that the 
specific homeporting recommendation changed significantly from 
the December draft that we saw. And what I am curious to know 
is can you explain the evolution in that recommendation from 
one that seemed to have all the strategic benefit at minimal 
cost to one that seems to have presented substantial costs 
around $1.0 billion by many calculations and operational 
challenges with minimal additional strategic benefits. Can you 
talk about the process by which that changed?
    Secretary Flournoy. Sure, I am happy to, sir. Secretary 
Gates has testified multiple times previously that he has been 
troubled about the risk to the carrier fleet from either a 
disaster or a catastrophic terrorist attack against Norfolk 
given not only the concentration of the fleet there, but the 
very unique nuclear support infrastructure there. So as part of 
the QDR, we were directed to look at a couple of options. We 
looked at two principal courses of action. One was to execute 
the move to Mayport and actually homeport the carrier there, 
another was to maintain Norfolk as the exclusive homeport and 
simply have an alternative port.
    Analysis was done on both of those, and the analysis 
concluded that the strategic benefit of dispersing the aircraft 
carrier fleet and the nuclear maintenance facilities across the 
East Coast, that the benefits of that would outweigh the cost. 
The truth is we have always had, certainly on the west coast 
and on the East Coast, multiple carrier homeports. What has 
changed is going from a mix of nuclear conventional to a 
nuclear-only fleet.
    And so now we have a single point of vulnerability that we 
need to address. We believe that given the incredible 
investment in the carrier fleet and how strategic an asset that 
is that this is a, you know, this is a reasonable insurance 
policy to safeguard the strategic value of that asset.
    Mr. Nye. Let me just in following up on something that Mr. 
Forbes raised in his questions, Admiral Mullen, in his 
testimony yesterday essentially said that the risk analysis 
done to support that decision was a judgment call and that the 
idea of strategic dispersal applying to East Coast carriers 
also applies equally to many other assets, for instance, our 
East Coast nuclear missile submarines. What I would like to 
know is if you agree with his assessment on that and whether 
the DOD currently has plans to disperse all those other assets, 
and can you comment on how the decision making process works to 
decide how you prioritize the need to disperse those various 
assets?
    Secretary Flournoy. I think that we have not looked as 
closely at the other assets. That may be work that we will need 
to do in the future.
    Mr. Nye. Just one last question. Again, following up on Mr. 
Forbes' question on the prioritizing. And you said in your 
testimony that the Secretary, together with Admiral Mullen, has 
taken action to direct resources away from lower priority 
programs and activities so that more pressing needs could be 
addressed, and I don't think anyone would argue with that. But 
can you tell me which are the lower priority programs that just 
missed the cut to be included in the QDR?
    Secretary Flournoy. Well, I think the Secretary has been 
very clear on several that didn't make the cut. C-17s being one 
given that we have every mobility study that the Department has 
conducted in recent years, says that we have more than enough 
of those particular planes. And if you go through the 
cancellation, program cancellation list, that gives you a sense 
of where we decided that we could afford not to pursue 
additional capability.
    Mr. Nye. My time is expired. Thank you.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you for being 
here today. Secretary Flournoy, I am pleased to see that the 
QDR recognizes that caring for our wounded, ill, and injured 
military members is the highest priority. The QDR includes 
plans to improve the treatment of our wounded warriors in 
several ways, including providing world-class care and 
management, benefit delivery and standardization of services 
across the military departments. However, I am concerned that 
the current plans for the wounded warrior support at the new 
Walter Reed National Military Medical Center when it opens at 
Bethesda in September 2011, is not at the same level of support 
currently furnished by the Army at Walter Reed Army Medical 
Center. Wounded warriors who move to the new medical center 
will experience a significant degradation of services and 
support. This is unacceptable. What assurances can you give me 
and military families that all of the wounded warrior support 
now provided at Walter Reed including barrack space at Bethesda 
campus will be available when the new medical center opens in 
September 2011?
    Secretary Flournoy. Sir, this is outside my area of 
personal responsibility, but again, this is an area that I know 
that the Secretary and the Deputy Secretary are working very 
hard. We are closing Walter Reed because of a previous BRAC 
[base closure and realignment] decision, and there is a lot of 
attention to ensure that as we consolidate capability at 
Bethesda, that we meet not only today's wounded warrior needs, 
but those of the future. And again, all I can do is assure you 
that this has gotten very high-level and consistent attention 
and will continue to do so in the future.
    Mr. Wilson. And please extend to the Secretary and anyone 
else that there is significant concern about the relocation 
expansion, and this is just so crucial as military families. 
For each of you, the QDR speaks of a comprehensive review for 
the role of Reserve and [National] Guard forces. The past 8 
years have highlighted the unique way in which the Guard and 
Reserve forces can augment the active force especially in 
unique skill sets. However, due to their commitment to the 
overseas fight, the historical role of the National Guard as 
our Nation's strategic reserve has waned.
    Given the first of the six key mission areas to the QDR is 
defend the United States and support civilian authorities at 
home, how will the Guard meet its historical role? Do you 
foresee efforts to grow the Guard and Reserve with regard to 
military construction [MILCON] and equipment?
    Secretary Flournoy. Sir, what I will say is that we are 
looking at trying to reduce the OPTEMPO [operational tempo] of 
the reserve component along with the total force and to sort of 
get them back to a more normal rotation schedule. We are also 
going to undertake a study this coming year of the roles of 
Guard and Reserve. In the meantime, what we have tried to do is 
really make targeted investment, improving their ability to 
respond to any kind of homeland contingencies, in particular, 
the establishment of homeland response forces that will be 
aligned with each of the ten FEMA [Federal Emergency Management 
Agency] regions and increase the responsiveness to some kind of 
catastrophic disaster.
    I think the Army is also paying significant attention to 
the equipment issues you raised and replenishing those stocks 
as units return from overseas deployments.
    Mr. Wilson. And that would include movement of equipment 
from theater back to the United States?
    Secretary Flournoy. Eventually yes. I don't know if the 
Admiral has more to add there.
    Admiral Stanley. Yes, the simple answer is yes, we are 
going to move the equipment back and refurbish it as part of 
the reset that we envision. The other thing I would add is this 
discussion on the Guard and Reserve is what should be the 
balance between a rotational Guard and Reserve and a strategic 
reserve that you brought up. And the Guard believes very 
strongly that they want to continue the rotational role that 
they have been part of for the last eight years, so we are 
trying to figure out the balance there.
    Mr. Wilson. And when you say the Guard wants to, as a 31-
year veteran of the Guard, I know Guard members are very proud 
of their service and very grateful for the opportunity to serve 
overseas, but we always have to keep in mind, particularly in 
my region, the consequences of a hurricane, possibly an ice 
storm, and the Guard has just served with such distinction. And 
so again, I appreciate very much what you are doing on behalf 
of the Guard and Reserve, and Guard and Reserve families are 
very grateful. I yield the balance of my time.
    The Chairman. I thank the gentleman. The witnesses, Madam 
Secretary, I understand turn to pumpkins right at one o'clock. 
It looks like we are going to come out even because we have 
just two more questioners, and we will get on with it and 
again, you don't have to turn to a pumpkin. Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman. Secretary Flournoy, 
the issue of energy independence remains critically important, 
and in fact, I think the QDR acknowledges this and states, 
``climate change and energy are two key issues that will play a 
significant role in shaping the future of the security 
environment.'' Although they produce distinct types of 
challenges, climate change, energy security, and economic 
stability are inextricably linked. I believe that the 
Department of Energy [DOE] and our national labs offer unique 
capabilities that can help address this major challenge. And in 
particular a strategic partnership between the Departments of 
Energy and Defense could be extremely beneficial to the 
security of our Nation and our Armed Forces.
    I wanted to ask you if you could provide me a little bit of 
an update on the efforts of the Department of Defense and the 
DOE, the efforts that they are taking to organize a 
collaborative energy security strategy and what you might see 
as some of the obstacles along the way.
    Secretary Flournoy. Thank you, and I will invite Dr. Fox to 
comment as well. This QDR was really different at congressional 
behest in addressing energy and climate issues up front as 
strategic concerns, both in terms of how they will affect the 
operating environment for the military of the future, but also 
because DOD is such a large energy consumer. And this gets to 
your question. We are having extensive interaction with the 
Department of Energy. We have actually created a new position 
for someone who will focus on a very serious person in the 
Pentagon, senior civilian, who will work with the services 
focused on operational energy concerns, and we are waiting for 
her to be confirmed. But I believe she will be the sort of 
focal point for that partnership to really use the fact that 
DOD has such a large market share, if you will, in the energy 
domain to drive further innovation in terms of alternative 
fuels, in terms of efficiencies, and so forth. But I don't know 
if there are some additional programmatic details you want to 
add.
    Ms. Fox. I can only add that the Department really is very 
focused on this and are working hard this year in studies to 
look at vulnerability of DOD bases, for example, to climate 
change outcomes. We are looking hard at the use of renewable 
energy in planes and ships, and we are also looking at ways to 
become more energy efficient across the Department to reduce 
costs, and all of that will be benefitted by this partnership 
with the Department of Energy.
    Mr. Heinrich. Thank you, Dr. Fox. Secretary Flournoy, 
shifting gears a little bit, the battles in Iraq and 
Afghanistan have yielded tremendous insights in how to 
effectively wage counterinsurgency operations. And as a result, 
the Air Force has identified the need for a light attack armed 
recognizance aircraft. And I wanted to ask you sort of where in 
the procurement process that is today, and have you at all 
explored the idea of potentially using the Air National Guard 
as an option for a future bed-down of those potential aircraft.
    Secretary Flournoy. I am going to defer to my operational 
and programmatic colleagues here on that one.
    Admiral Stanley. The light attack aircraft is envisioned to 
be something that our military can use to better engage with a 
lot of the strategic partners that want to build security 
relationships with something that they can afford, they can 
use, be easier for us to train and equip them. So that is the 
genesis of the idea. The idea has not matured much beyond that, 
and certainly not to the point of being bed-down in specific 
areas.
    Mr. Heinrich. I just say that I look forward to learning 
more about what the Air Force has in mind and how to best 
leverage the potential there. And with that I would yield back 
the rest of my time, Mr. Chairman.
    The Chairman. Thank the gentleman. Mr. Wittman, wrap it up.
    Mr. Wittman. Thank you, Mr. Chairman. Thank you all so much 
for joining us today. I wanted to talk a little bit about 
shipbuilding. I know the budget has 15 point--or $15.7 billion 
in there for shipbuilding. The 30-year shipbuilding plan houses 
313 ships. The current level of funding, 9 ships a year over 30 
years, 270 ships. If you start to break that down, what you are 
looking at is over a five-year period, eight of those are joint 
high-speed vessels. If you then look at those, they are small 
surface combatants, we are building 42 battle force ships. Then 
17 of those are LCS ships, a little less expensive. So without 
the JHSVs and LCSs, we are only building 24 battle force ships 
in the last 5 years, and we are leaving the more expensive 
large surface combatants to fund in the future. On top of that, 
it looks like we are going towards a 275-ship Navy rather than 
a 313 ship Navy. On top of that, too, we are adding a BMD focus 
into this.
    My concern is now we are providing a BMD mission to the 
Ticonderoga-class and the Arleigh Burke-class destroyers. And 
those destroyers are only going to be fit for meeting a short-
range missile defense not a long-range missile defense. So if 
we are making those BMD decisions in an already challenged 
environment with shipbuilding and putting that additional 
mission set out there for our surface combatants, and if we are 
making BMD a priority, then we need to know what the COCOMs' 
[combatant commands'] requirements are and how we can answer 
those requirements either for the current forces on a new 
procurement, and I really don't see the answer for that in this 
budget. There is lacking some specificity there. And it is also 
concerning too that we are not defending against that long-
range threat but only the near-range threat, those threats like 
we would see with Iran. Can you tell me what the President's 
plan is to address our BMD mission, and that is from either a 
new procurement point of view, or how our current forces will 
answer the increased mission load, and also if you can tell me 
when developing the future years defense plan, what 
consideration was given to the impact on our core ship building 
industrial base? Specifically, why are we pushing funding on 
the more expensive ships out in future years and doing the less 
expensive ships here? It seems like to me a lot of different 
decisions that are going to create tremendous pressure on our 
BMD capability and our shipbuilding needs and our budgets.
    Secretary Flournoy. I will take on the broader BMD 
question, and then I will leave the shipbuilding issues to Dr. 
Fox and perhaps the Admiral wants to chime in. On BMD, on the 
Ballistic Missile Defense Review [BMDR], I guess I would say we 
are doing two things: We are certainly sustaining and 
strengthening the ability to defend the homeland against 
limited attack, so that is not going away. In fact, we are 
continuing to invest in that. But what we are really beefing up 
as a new area of focus is regional ballistic missile defense. 
And part of that is going to be initially ship-borne, but 
eventually much of that will migrate onto land-based SM-3 
[Standard Missile-3] systems.
    And so the naval component is critical but it is one 
component of a broader system that also envisions a number of 
land-based systems. I think one of the things we are doing now 
is scrubbing the impacts of that on both the buys of future SM-
3s, particularly as we get beyond the first variant, but also 
on how this will affect the overall sort of operational concept 
for BMD related naval assets. But let me turn it over to Dr. 
Fox, and then perhaps the Admiral will chime in.
    Ms. Fox. Well, as you characterize we did put $15.7 billion 
in an account this year. And it does have the split that you 
refer to which is consistent in our view with the QDR strategy. 
There is an increased emphasis, you are absolutely right, on 
some of the smaller ships like JHSV because it does help enable 
that part of the strategy that Secretary Flournoy has outlined 
to you. But that doesn't mean we are walking away from the 
higher-end capabilities. We are going to be building two 
Virginia-class submarines a year across the FYDP. There is no 
more period even within the FYDP where we will go to one, it is 
two straight across. We will have two DDG-51 destroyers.
    We are upgrading them and looking at the improvement in the 
improved DDG. We are sustaining the carrier build. So I feel 
that we are doing both. We are trying to meet that broad 
spectrum of capabilities that we have been talking about. You 
asked about the industrial base. The industrial base along the 
Gulf Coast is going to be stressed a little by the shipbuilding 
plan due to the amphibious changes, and that might force a 
consolidation, but that will let you have more opportunity to 
talk to the Navy about that but that is absolutely true.
    The other thing about the industrial base I would just like 
to add is in the years where we are building the SSBNs there 
could be some pressure on the combatants.
    The Chairman. I thank the gentleman. We came out right on 
time for you, and we appreciate your testimony, your hard work, 
your answering our questions. And some of them, I realize were 
very difficult and that you don't have the answers to 
everything, but I think you did remarkably well. Keep doing 
well and we will ask you of course to come back. And Ms. Fox 
and Admiral Stanley, thank you for your initial testimony here. 
And Secretary Flournoy, you are always so good to be with us, 
and thank you for your wisdom.
    Secretary Flournoy. Thank you very much, sir.
    [Whereupon, at 1:00 p.m., the committee was adjourned.]



=======================================================================


                            A P P E N D I X

                            February 4, 2010

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 4, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 57833.001
    
    [GRAPHIC] [TIFF OMITTED] 57833.002
    
    [GRAPHIC] [TIFF OMITTED] 57833.003
    
    [GRAPHIC] [TIFF OMITTED] 57833.004
    
    [GRAPHIC] [TIFF OMITTED] 57833.005
    
    [GRAPHIC] [TIFF OMITTED] 57833.006
    
    [GRAPHIC] [TIFF OMITTED] 57833.007
    
    [GRAPHIC] [TIFF OMITTED] 57833.008
    
    [GRAPHIC] [TIFF OMITTED] 57833.009
    
    [GRAPHIC] [TIFF OMITTED] 57833.010
    
    [GRAPHIC] [TIFF OMITTED] 57833.011
    
    [GRAPHIC] [TIFF OMITTED] 57833.012
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 4, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. The Army budget request contains funds to continue 
expanding infrastructure at Ft. Bliss and other installations. The QDR 
states that four Army brigades will remain in Europe until a future 
decision is made on force structure needs in Europe pending the 
undergoing global defense posture review. When will the Department of 
Defense announce a final decision on European force structure?
    Secretary Flournoy. The Department will announce any decision on 
force structure of U.S. forces in Europe following an assessment of 
U.S. posture and capabilities, which will be informed by the NATO 
Strategic Concept review expected in Fall 2010. Any changes to our 
defense posture will be informed by, and occur only after, close 
consultations with our allies, partners and Congress.
    Mr. Reyes. The Army budget request contains funds to continue 
expanding infrastructure at Ft. Bliss and other installations. The QDR 
states that four Army brigades will remain in Europe until a future 
decision is made on force structure needs in Europe pending the 
undergoing global defense posture review. When will the Department of 
Defense announce a final decision on European force structure?
    Admiral Stanley. OSD is leading an effort to review our global 
posture, and as part of this effort is working closely with Geographic 
Combatant Commanders. European Command will weigh in to help determine 
the most appropriate force structure for Europe based on U.S. 
requirements and the needs of our partners and allies in the region. I 
expect the timing of this decision will be paced by the information 
uncovered in the study as well as by NATO's decisions about its 
strategic concept, which are not expected until the end of 2010.
    Mr. Reyes. Has the DOD considered maintaining a presence in Europe 
by rotating brigades to Europe from U.S. home bases?
    Secretary Flournoy. During the QDR, the concept of rotating U.S. 
forces to Europe instead of stationing forces forward was considered. 
It is important to note that maintaining a rotational presence forward 
on a long-term basis requires approximately three times the number of 
personnel as would be required to station forces forward - due to the 
need to generate forces for deployment, to maintain the ``boots-on-the-
ground to dwell'' ratio, and to achieve training readiness prior to 
rotational deployment. The Department continues to examine U.S. global 
force posture, including both rotational and forward-stationing 
solutions.
    Mr. Reyes. Has the DOD considered maintaining a presence in Europe 
by rotating brigades to Europe from U.S. home bases?
    Admiral Stanley. Yes. However, the final decision about the size 
and type of U.S. presence in Europe will be made based on the 
requirements of U.S. defense strategy. This decision will weigh the 
advantages of being able to build relationships through permanently 
basing forces in Europe against the flexibility offered by rotational 
forces as well as the associated costs of the options. The analysis 
will also address NATO's decisions about its strategic concept, which 
are not expected until the end of 2010, and will be scoped to include 
an assessment of our European defense posture.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. The 2006 QDR highlighted the need to expand the WMD 
``Response Dimension'' including an emphasis on WMD elimination 
operations that locate, characterize, secure, disable, and/or destroy a 
state or non-state actor's WMD capabilities and programs in a hostile 
or uncertain environment. The 2006 QDR also highlighted the need to 
organize, train, and equip joint forces for this increasingly important 
mission. Can you describe the progress that has been made to-date in 
this area since the 2006 QDR? And since the new 2010 QDR places equal 
emphasis on countering WMD and preventing proliferation, what gaps 
still exist and how will 2010 QDR priorities address these gaps?
    Secretary Flournoy. Since the 2006 QDR, important progress has been 
made to expand and enhance WMD elimination capabilities. In 2007, the 
United States Strategic Command created the Joint Elimination 
Coordination Element (JECE) within the Army's 20th Support Command in 
Aberdeen, Maryland. The JECE is tasked with forming a deployable Joint 
Task Force-Elimination (JTF-E) to respond to WMD-related incidents and 
is responsible for providing the manpower, joint expertise, and 
knowledge required for the JTF-E to execute its mission successfully in 
non-permissive and semi-permissive environments. The JTF-E concept has 
proven its effectiveness in numerous training evolutions, particularly 
in U.S. Forces Korea exercises.
    To build upon the success of the JECE and address remaining 
capability shortfalls, the 2010 QDR report directed the establishment 
of a standing Joint Task Force-Elimination Headquarters to provide 
additional capacity and capability to plan, train, and execute WMD-
elimination operations across a variety of scenarios and areas of 
operations. The Chairman of the Joint Chiefs of Staff is leading a 
coordinated effort with the Services and the Combatant Commands to 
develop options for the command and control structure and force 
composition and manpower levels of a standing JTF-E Headquarters, 
including the possible incorporation of WMD exploitation, intelligence, 
and coordination cells.
    Ms. Sanchez. Mr. Secretary, you will recall that the NDAA for 
FY2010 required the Department to prepare and submit a report and 
recommendations on the organization, manning, and management of the 
U.S. Special Operations Command. We look forward to reviewing this 
report and your recommendations in the coming weeks. Since the 2010 QDR 
places a Department-wide emphasis on ``taking care of our people,'' can 
you address how this applies to our Special Operations Forces in terms 
of recruitment, retention, and the management of op tempo? Will your 
forthcoming report address these issues and provide actionable 
recommendations?
    Secretary Flournoy. U.S. Special Operations Command (USSOCOM) 
places significant emphasis on taking care of its people and works in 
close collaboration with the Military Departments on all matters that 
affect special operations personnel. USSOCOM understands that the 
backbone of the organization is not equipment or facilities, but it is 
the talented and dedicated men and women who sacrifice on a daily basis 
that form its fundamental strength.
    Concerning recruitment, USSOCOM, in coordination with the Military 
Departments, has maintained the very highest standards for recruiting 
from civilian society as well as for accessions from the general 
purpose forces (GPF). USSOCOM consistently attracts outstanding 
individuals as a result of meaningful and challenging career 
opportunities within the special operations field, as well as an 
institutional culture that places great value on leadership and 
personal development.
    Although successful recruitment is necessary for USSOCOM's 
effectiveness in fulfilling its mission, it is not sufficient; 
retention is equally important. USSOCOM has undertaken a number of 
initiatives to retain its most talented personnel including the 
implementation of far-reaching monetary incentive programs, such as a 
critical skills retention bonus, obligating the service member to 
additional years of service. This incentive program has been highly 
successful in retaining experienced and highly trained specialists when 
the training investment is at its highest and the operator is at his or 
her most effective. Another incentive to retain senior operators is 
assignment incentive pay. This program offers a monthly stipend to 
encourage our most experienced personnel to maintain their service in a 
SOF specialty. Another incentive offered is a higher level of special 
duty assignment pay to attract service members to a duty assignment 
characterized by extremely demanding duties. Enlisted operators who 
enter the Warrant Officer corps are offered a bonus for extending and 
continuing their SOF service in positions that demand additional 
training and leadership skills.
    An important component related to retention is operational tempo. 
As you are well aware, the past nine years have been very demanding for 
our military as a whole, and in particular for our special operations 
forces. USSOCOM is working hard to improve the deployment-to-dwell 
ratio for its personnel. As an example, USSOCOM is working with the 
Military Departments to increase GPF Combat Support (CS) and Combat 
Service Support (CSS) that provide dedicated or direct support to 
deployed SOF. Concurrently and with the full support of the Military 
Departments, USSOCOM is also significantly growing its own organic CS 
and CSS force structure in accordance with the QDR. When the effects of 
these initiatives are realized, a considerable burden will be lifted 
from USSOCOM CS and CSS forces, resulting in deployment to dwell ratios 
closer in line with Department goals.
    The forthcoming Report on Special Operations Command Organization, 
Manning, and Management, as required by Section 933 of the NDAA for 
FY2010, will not directly address issues relating to the discussion 
above as it focuses specifically on the eleven elements required by 
Section 933, but it does provide a number of actionable recommendations 
for greater efficiency and effectiveness within USSOCOM that will 
enable us to meet the needs of our special operations forces.
    Ms. Sanchez. The 2010 QDR directs the establishment of a standing 
Joint Task Force Elimination Headquarters that will plan, train, and 
execute WMD-elimination operations. Can you outline the role of SOF 
within this Joint Task Force and can you describe how USSOCOM will fit 
into this proposed framework, both operationally and administratively?
    Admiral Stanley. We are currently studying the precise architecture 
of the Joint Task Force-WMD Elimination (JTF-E). Although the use of 
Special Operations Forces in some WMD-elimination missions will be 
critical, the alignment of SOF with respect to the JTF is part of the 
ongoing study. Thus, command relationships between JTF-E headquarters 
and the Combatant Commanders have not been determined.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. The QDR speaks of a comprehensive review for the role 
of Reserve and Guard forces, including evaluating the ideal Active/
Reserve mix for current and future operations. The past eight years 
have highlighted the unique way in which the Guard and Reserve forces 
can augment the active force, especially in unique skill sets. However, 
due to their commitment to the overseas fight, the historical role of 
the Natural Guard as the Nation's strategic reserve has waned. Given 
that the first of the six key mission areas of the QDR is ``Defend the 
United States and support civilian authorities at home'' how will the 
Guard return to its historical role? How will their training and 
equipment change to reflect their need to focus on the domestic 
defense?
    Secretary Flournoy. In recent years, policy debates have focused on 
whether the National Guard should be an operational reserve or a 
strategic reserve. In the Department's view, these roles are not 
mutually exclusive. The National Guard still provides strategic depth 
for the Nation, but the National Guard also serves as part of an 
operational force. In fact, the Department could not implement the 
National Defense Strategy without drawing on the National Guard and 
Reserve as part of the operational force.
    The Department appreciates the dual role of the National Guard in 
serving the States and the Department of Defense in protecting our 
Nation and its citizens. We continue to pursue ways to balance these 
dual roles and to ensure a more sustainable deployment tempo for the 
National Guard and Reserves. Using long-range scheduling for 
predictability and individual volunteerism for flexibility, the Air 
National Guard has reached a nearly five-to-one dwell-to-deployed 
ratio, with the Army National Guard close behind, approaching four-to-
one. As Secretary Gates observed in February 2009, our goal for the 
Army National Guard is a dwell-to-deployed ratio of five to one.
    To support efforts to balance the overseas and domestic missions of 
the National Guard, the Department of Defense invests billions in 
training and equipping the National Guard. Over the last three years, 
the Department has committed nearly $16 billion total for Army National 
Guard and Air National Guard procurement. The on-hand rate for the 
National Guard--which averages 70% historically--has improved from just 
under 40% in 2006 to nearly 80% by the end of FY09. The Department's 
objective is to reach roughly 90% by FY15.
    The National Guard already plays a critical role in domestic 
operations--both homeland defense and defense support to civil 
authorities. As noted in the QDR report, the Department is evolving its 
approach to chemical, biological, radiological, nuclear, and high-yield 
explosives (CBRNE) consequence management forces and will be 
restructuring existing National Guard forces to support the creation of 
a Homeland Response Force (HRF) in each of the ten Federal Emergency 
Management Agency regions. These ten HRFs will provide a regional 
response capability with enhanced lifesaving capabilities and reduced 
response times; focus on planning, training, and exercising; and forge 
strong links between the Federal level and State and local authorities. 
These forces will receive specialized CBRNE training and equipment, and 
will focus exclusively on domestic operations for an extended period 
during the normal force generation rotation cycle.
    Mr. Wilson. The QDR speaks of a comprehensive review for the role 
of Reserve and Guard forces, including evaluating the ideal Active/
Reserve mix for current and future operations. The past eight years 
have highlighted the unique way in which the Guard and Reserve forces 
can augment the active force, especially in unique skill sets. However, 
due to their commitment to the overseas fight, the historical role of 
the Natural Guard as the Nation's strategic reserve has waned. Given 
that the first of the six key mission areas of the QDR is ``Defend the 
United States and support civilian authorities at home'' how will the 
Guard return to its historical role? How will their training and 
equipment change to reflect their need to focus on the domestic 
defense?
    Admiral Stanley. The National Guard continues to maintain its role 
in Defense Support to Civil Authorities (DSCA), homeland defense, and 
consequence management while supporting the operational mission 
requirements in Iraq, Afghanistan, and elsewhere. There are ongoing 
studies to find the optimal balance between an operational force and a 
strategic reserve within the Reserve Component and the National Guard 
in particular, which will inform their training and equipping 
requirements.
    Mr. Wilson. The QDR speaks of a comprehensive review for the role 
of Reserve and Guard forces, including evaluating the ideal Active/
Reserve mix for current and future operations. The past eight years 
have highlighted the unique way in which the Guard and Reserve forces 
can augment the active force, especially in unique skill sets. However, 
due to their commitment to the overseas fight, the historical role of 
the Natural Guard as the Nation's strategic reserve has waned. Given 
that the first of the six key mission areas of the QDR is ``Defend the 
United States and support civilian authorities at home'' how will the 
Guard return to its historical role? How will their training and 
equipment change to reflect their need to focus on the domestic 
defense?
    Ms. Fox. The question of whether the National Guard should be an 
operational or a strategic reserve is an extremely important one. There 
are ongoing studies seeking optimal ways to balance these dual roles 
and to ensure a more sustainable deployment tempo for the National 
Guard. In the Department's view, these roles are not mutually 
exclusive. The National Guard provides strategic depth for the Nation 
and augments the operational force. In fact, the U.S. military forces 
cannot satisfy all of today's demands without them.
    The National Guard already plays a critical role in domestic 
operations--both homeland defense and defense support to civil 
authorities. As noted in the QDR report, the Department is evolving its 
approach to chemical, biological, radiological, nuclear, and high-yield 
explosives (CBRNE) consequence management forces and will be 
restructuring existing National Guard forces to support the creation of 
a Homeland Response Force (HRF) in each of the ten Federal Emergency 
Management Agency regions. These ten HRFs will provide a regional 
response capability with enhanced lifesaving capabilities and reduced 
response times; focus on planning, training, and exercising; and forge 
strong links between the Federal level and State and local authorities. 
These forces will receive specialized CBRNE training and equipment, and 
will focus exclusively on domestic operations for an extended period 
during the normal force generation rotation cycle.
    Mr. Wilson. Concurrent with fighting two major wars, the U.S. 
military had been involved in many humanitarian operations resultant 
from unforeseen disasters, including the earthquake in Haiti, Hurricane 
Katrina, and the tsunami in Southeast Asia. While the QDR nods to the 
fact that the military must be prepared for contingency operations, it 
falls short in outlining how this is possible without continuing to 
overtax the force while engaged in multi-theater operations. What 
importance is the Department placing on the possibility of contingency 
operations? And, how can we ensure that our military remains always 
prepared to face those events which are impossible to predict?
    Secretary Flournoy. The analysis that underpinned the QDR report 
examined the force's ability to face a multitude of individual 
scenarios, just as the force has historically performed a multitude of 
concurrent missions. These scenarios combined large-scale 
contingencies, a variety of smaller-scale episodic events, and routine 
operations that U.S. forces historically perform. Several natural 
disaster scenarios were included, and they were treated the same as 
other episodic scenarios in that they made up the foundational 
activities underlying all sets of scenarios. In this way, we were able 
to ensure these types of missions are accounted for in determining the 
impact on and capabilities of the force.
    Mr. Wilson. Concurrent with fighting two major wars, the U.S. 
military had been involved in many humanitarian operations resultant 
from unforeseen disasters, including the earthquake in Haiti, Hurricane 
Katrina, and the tsunami in Southeast Asia. While the QDR nods to the 
fact that the military must be prepared for contingency operations, it 
falls short in outlining how this is possible without continuing to 
overtax the force while engaged in multi-theater operations. What 
importance is the Department placing on the possibility of contingency 
operations? And, how can we ensure that our military remains always 
prepared to face those events which are impossible to predict?
    Admiral Stanley. Current operations in Iraq and Afghanistan have 
clearly strained our Armed Forces. Until there is significant reduction 
of our force commitments to these contingencies, that strain will 
continue. We work hard to ensure forces we deploy overseas are fully 
ready for their assigned mission - and they are. The Department 
regularly assesses its ability to respond to crises, although we cannot 
predict with much accuracy which situations the Department will 
actually face. However, as we experienced with Haiti and other recent 
natural disasters, we do have sufficient capability and capacity in the 
non-deployed force to effectively respond to contingency operations.
    Mr. Wilson. Concurrent with fighting two major wars, the U.S. 
military had been involved in many humanitarian operations resultant 
from unforeseen disasters, including the earthquake in Haiti, Hurricane 
Katrina, and the tsunami in Southeast Asia. While the QDR nods to the 
fact that the military must be prepared for contingency operations, it 
falls short in outlining how this is possible without continuing to 
overtax the force while engaged in multi-theater operations. What 
importance is the Department placing on the possibility of contingency 
operations? And, how can we ensure that our military remains always 
prepared to face those events which are impossible to predict?
    Ms. Fox. We account for these types of demands in our force 
structure planning. There are numerous, classified ``Steady State 
Security Posture'' events set abroad and within the United States that 
represent the demands of humanitarian assistance operations. The ``QDR 
Strategic Environment'' was based on a context of many of these types 
of day-to-day events and was a component of in the QDR analysis.
    Sadly, DOD has many opportunities to provide humanitarian 
assistance globally. Our military forces have the capabilities 
necessary to enter an environment where the normal operations of 
governing have been disrupted and support stabilizing activities such 
as establishing communications, providing medical assistance, 
conducting logistical operations and contributing to security. These 
skills are consistent with preparing for domestic and overseas 
operations.
    Mr. Wilson. Senior leadership in the DOD has made the starting 
point on ``Don't Ask Don't Tell'' how to implement a repeal of current 
law, rather than whether the law should be repealed. This has 
introduced undue command influence into the debate. I fear that 
everyone below the Secretary of Defense and the Chairman of the Joint 
Chiefs in the military now knows that expression of opinions that would 
argue for not changing the policy could be subject to sanction. And if 
not sanction, then the senior leadership's views that the law should be 
repealed will have a chilling effect on the objectivity of the input a 
comprehensive study might seek. How would you envision that, given 
these public positions, Congress can obtain the unbiased, objective 
input from military personnel of all ranks? Would you support military 
personnel testifying before Congress on this issue?
    Secretary Flournoy. As you know, on February 2, 2010, Secretary 
Gates announced the formation of a Department of Defense Working Group 
to assess the implications of a repeal of 10 U.S.C. Sec. 654, should 
that occur, and develop an implementation plan for any new statutory 
mandate.
    The Working Group is firmly committed to soliciting the views of a 
wide array of individuals from the different services, including, as 
the Secretary has directed, military families. Over the course of the 
next eight months members of the Working Group will meet with a wide 
array of individuals of all services, rank, age and assignment, 
officers and enlisted, to seek their advice, opinions and concerns 
regarding a repeal and how it should be implemented. Likewise, the 
Working Group will seek to hear from the many responsible voices of 
those individuals and groups with diverse views on this important 
matter.
    The two co-chairs of the Working Group, Department of Defense 
General Counsel Jeh Johnson and Army General Carter Ham, are asking all 
members of the Working Group to be neutral and objective in conducting 
this assessment. The Department of Defense is mindful that this is an 
emotional subject, the topic of intense debate, and that almost 
everyone familiar with the issue has an opinion about it. Mr. Johnson 
and General Ham are committed to leading this Working Group in an 
objective and thorough manner, and will provide the Secretary with 
their best assessment of the impact of repeal, regardless of what that 
may be, to permit the Secretary to determine, as he said in his 
testimony, how best to prepare for implementation of a Congressional 
repeal.
    The Department of Defense is also committed to engaging with 
Members of Congress throughout this process. The Department of Defense 
will work closely with Congress to provide appropriate witnesses as 
necessary for testimony on this issue and expects that the Department's 
witnesses will answer all questions, including questions regarding 
their personal opinions, fully and truthfully.
    Mr. Wilson. Senior leadership in the DOD has made the starting 
point on ``Don't Ask Don't Tell'' how to implement a repeal of current 
law, rather than whether the law should be repealed. This has 
introduced undue command influence into the debate. I fear that 
everyone below the Secretary of Defense and the Chairman of the Joint 
Chiefs in the military now knows that expression of opinions that would 
argue for not changing the policy could be subject to sanction. And if 
not sanction, then the senior leadership's views that the law should be 
repealed will have a chilling effect on the objectivity of the input a 
comprehensive study might seek. How would you envision that, given 
these public positions, Congress can obtain the unbiased, objective 
input from military personnel of all ranks? Would you support military 
personnel testifying before Congress on this issue?
    Admiral Stanley. To better understand the dynamic of this issue to 
the current force, the Secretary of Defense has established a high-
level working group to undertake a comprehensive review of repealing 
the current law. This review will include participation from service 
members across a range of age, rank, and warfare communities, including 
families, and reach out across the force to develop insights and 
recommendations. The results of this study will inform our senior 
leaders and help shape their advice. As evidenced by the testimony 
given by the Service Chiefs after the statements made by Secretary 
Gates and Chairman Mullen, I do not believe there has been undue 
influence.
    Mr. Wilson. Senior leadership in the DOD has made the starting 
point on ``Don't Ask Don't Tell'' how to implement a repeal of current 
law, rather than whether the law should be repealed. This has 
introduced undue command influence into the debate. I fear that 
everyone below the Secretary of Defense and the Chairman of the Joint 
Chiefs in the military now knows that expression of opinions that would 
argue for not changing the policy could be subject to sanction. And if 
not sanction, then the senior leadership's views that the law should be 
repealed will have a chilling effect on the objectivity of the input a 
comprehensive study might seek. How would you envision that, given 
these public positions, Congress can obtain the unbiased, objective 
input from military personnel of all ranks? Would you support military 
personnel testifying before Congress on this issue?
    Ms. Fox. At least at this point, the repeal of 10 U.S.C. Sec. 654 
is not a programmatic issue and, for that reason, I do not have the 
specific knowledge or responsibilities necessary to speak 
authoritatively about it. I understand that the Department is carefully 
considering the implications of repealing this law and is treating the 
issue with the diligence it is due. Should anyone from CAPE be called 
to testify, I will not place undue command influence or sanctions on 
them.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BRADY
    Mr. Brady. One part of the QDR talks about the destabilizing impact 
of climate change and the importance of energy security. I'm interested 
in the impact of climate change on the threat landscape, as discussed 
in the QDR. Specifically, it says that weak nations are least likely to 
be able to respond to the natural disasters caused by climate change, 
that it is destabilizing fragile nations and increasing poverty. This 
is an important point, because weak and failed states are the best safe 
havens and breeding grounds that terrorists have. Can you talk about 
that connection between climate change and terrorism and how the 
Department of Defense plans on addressing it?
    Secretary Flournoy. The 2008 National Intelligence Assessment of 
the Impacts of Climate Change, conducted by the National Intelligence 
Council (NIC), concluded that climate change will have significant 
geopolitical effects around the world and will contribute to a host of 
problems, including poverty, environmental degradation, and the 
weakening of national governments. Climate change will contribute to 
food and water shortages, increase the spread of disease, and may help 
spur mass migration, although the causes of migration are complex and 
usually difficult to attribute to a single factor. The NIC assessment 
warned that the storms, droughts, and food shortages that might result 
from a warming planet in coming decades could create numerous relief 
emergencies. Thus, we assess that climate change is a stress that has 
the potential to accelerate state failure in some cases, and may also 
lead to the spread of insurgency as weak governments fail to cope with 
its effects. We have already seen Al Qaeda seize on climate change as 
another grievance against the West, and attempt to use it to stir up 
resentment against the United States and other developed countries.
    The Department of Defense works closely with other U.S. Departments 
and agencies in addressing these concerns, focusing on building the 
security capacity of partner states, a key mission highlighted in this 
year's QDR report. We recognize that in some nations, the military is 
the only institution with the capacity to respond to a large-scale 
natural disaster. Working closely with interagency partners, DOD has 
undertaken environmental security cooperation initiatives with foreign 
militaries that represent a non-threatening way of building trust and 
developing response capacity.
    Mr. Brady. The QDR spends a significant amount of time talking 
about the threat posed to our defense infrastructure by climate change. 
Coastal installations, especially, are vulnerable to the rising sea 
levels and increasingly strong storms that scientists say climate 
change is producing. Given the billions we have invested in this 
critical security infrastructure, can you talk about the Department's 
plan for dealing with this and other impacts of climate change in the 
QDR's 20-year timeframe?
    Secretary Flournoy. DOD is working and will continue to work to 
assess, adapt to, and mitigate the effects of climate change. 
Domestically, the Department will leverage the initial efforts of the 
Strategic Environmental Research and Development Program (SERDP), a 
joint effort among DOD, the Department of Energy, and the Environmental 
Protection Agency, to develop climate change impact and installation 
vulnerability assessment tools. We are concerned not only about effects 
on physical structures, but also broader effects on testing, training, 
and readiness activities, and the challenge of sustainable land and 
ecosystem-based management. The Department will need to build further 
on this foundation in order to develop a long-term approach to address 
climate impact on DOD's infrastructure.
    Mr. Brady. The strategy we're discussing is obviously strongly 
focused on asymmetrical threats and nontraditional enemies. One part of 
the QDR addressed something which most people may not realize--that 
climate change is making these threats worse. It says that climate 
change is accelerating instability and destabilizing already fragile 
governments with droughts, famines, floods, and mass migrations. These 
sound like exactly the kind of things that cause states to fail--and 
those failed states are usually the safe havens of terrorist groups. 
Can you please explain the connection between climate change, failed 
states, and terrorism in the context of preparing for wars against 
asymmetric threats?
    Secretary Flournoy. The 2008 National Intelligence Assessment of 
the Impacts of Climate Change, conducted by the National Intelligence 
Council (NIC), concluded that climate change will have significant 
geopolitical effects around the world and will contribute to a host of 
problems, including poverty, environmental degradation, and the 
weakening of national governments. Climate change will contribute to 
food and water shortages, increase the spread of disease, and may help 
spur mass migration, although the causes of migration are complex and 
usually difficult to attribute to a single factor. The NIC assessment 
warned that the storms, droughts, and food shortages that might result 
from a warming planet in coming decades could create numerous relief 
emergencies. Thus, we assess that climate change is a stress that has 
the potential to accelerate state failure in some cases, and may also 
lead to the spread of insurgency as weak governments fail to cope with 
its effects. We have already seen Al Qaeda seize on climate change as 
another grievance against the West, and attempt to use it to stir up 
resentment against the United States and other developed countries.
    Climate change is just one stress factor in a complex strategic 
environment. The integrated use of diplomacy, development, and defense 
can build the capacity of partner nations to maintain and promote 
stability in order to prevent conflict. The U.S. Armed Forces will 
continue to develop capabilities necessary to help create a secure 
environment in fragile states in support of local authorities and, if 
necessary, to support civil authorities in providing essential 
government services, restoring emergency infrastructure, and supplying 
humanitarian relief in response to natural disasters, such as those 
that may be caused by climate change.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. Thank you, Mr. Chairman. I also want to thank the 
witnesses for being here today and for their many months of hard work 
on the QDR. One area of this review that I disagree with is what I 
think is an incompatible evaluation of the future of manned fighter 
aircraft. This is an area that Congressman LoBiondo and I have worked 
on for several years and this review confirms what I think we have 
suspected. That a fighter gap exists and it has grown by 536 aircraft 
from two years ago. Yesterday's statements from Secretary Gates cast 
significant doubt on the Department's commitment to addressing this 
shortfall. The 162d Fighter Wing in Tucson is the Nation's largest Air 
Guard Fighter unit and they are flying some of our Nation's oldest 
fighter jets. Under the future force structure plans in this review, 
our fighter gap will continue to grow and the 162d is right in the 
crosshairs. While 5th generation aircraft like the Joint Strike Fighter 
will surely be more capable than their predecessors, we MUST 
acknowledge that there is an important quality to quantity. Ultimately, 
the 162d in Tucson and dozens of other units around the country are 
responsible for the security of our homeland and they must have 
aircraft on the ramp to carry out that mission. According to the Air 
Force's supporting documents, shortages are ``likely'' between 2017 and 
2024 and these retirements are NOT offset by procurement of the Joint 
Strike Fighter. We need a smart and immediate solution to this problem. 
One area where I believe we are making leaps and bounds forward is on 
reforming our energy portfolio. As you know, the Department's energy 
usage has been one of my key areas of focus. I have been working hand 
in hand with the Services and my colleagues on the Committee to set key 
performance goals for reductions in petroleum usage and increases in 
efficiency that will save lives on the battlefield and money in budget. 
This is the first time that energy issues have been included in this 
review as a key component for future strategic planning. Over the last 
eight years, we have learned a great deal about the strategic 
significance of a secure energy supply. During the invasion in 2003, 
Marine Corps ground forces used 90% of its energy on transporting and 
protecting the other 10% they used for operations. That's just one 
example of how the Department's energy appetite has put servicemembers 
between the enemy and the energy supply. For the first time, this 
review takes into account these untold costs of energy supply lines in 
troops diverted, money spent and lives lost. While this is the first 
major strategic document to cover this subject area, the services have 
already leaned far forward in making energy a focus of their 
modernization plans. Battlefield renewable and spray foam technology 
have reduced consumption by as much as 75%. At home, drastic increases 
in the use of renewable, responsible energy have offset installation 
usage. At Davis-Monthan Air Force Base in my District, we recently held 
a ribbon cutting for the largest solar powered community in the country 
with more than 80,000 solar panels that will provide 75% of the 
neighborhood's energy requirements. These are inherently smart, good 
things that I fully support. As I mentioned, I have been a strong 
proponent of reforming DOD's energy usage. Over the last year, I have 
been working aggressively with the Committee and the Services on 
developing an overarching master plan for DOD's energy portfolio. 1. 
Can you talk a little bit about the specific areas where you envision 
DOD moving forward on both operational energy and installation energy? 
2. Does this year's budget demonstrate a significant enough investment 
in growing the renewable energy portfolio within DOD to match up with 
what you have included in the QDR? 3. Are Energy Savings Performance 
Contracts (ESPCs) a fruitful endeavor for the future or do you see them 
waning over the long haul? 4. In 20 years, what accomplishments and 
milestones should we have met in order to achieve the strategic goals 
outlined in the review?
    Secretary Flournoy. 1. The confirmation of the Director of 
Operational Energy Plans and Programs will be a key step in moving 
forward on operational energy challenges. We look forward to the 
arrival of the Director, when confirmed, and the focus that senior 
leader will bring to the kinds of operational energy issues you have 
highlighted. The Department will be implementing the Energy Key 
Performance Parameter as well as the Fully Burdened Cost of Fuel in the 
requirements and acquisition processes, respectively. The Department 
will begin to develop the rules governing each, to give context for 
setting and understanding the values of each and their relative 
importance compared to all of the traditional factors in the 
acquisition tradespace. Two significant studies to help provide this 
context and develop this set of rules will be completed this Spring. In 
addition to the technology investments and demonstration programs 
underway, the Department will realize significant reductions in its 
demand for delivered energy in the battlespace.
    The Department is investing more to improve the energy profile of 
fixed installations. Financing for these investments has come from 
annually appropriated funds, including military construction, operation 
and maintenance, and the Energy Conservation Investment Program (ECIP). 
The Department has used third-party financing through Energy Savings 
Performance Contracts (ESPCs) and Utilities Energy Service Contracts 
(UESCs). The Department is also pursuing other innovative financing 
mechanisms, such as Enhanced Use Leases (EULs) and Power Purchase 
Agreements (PPAs). The Department's basic investment strategy is 
twofold: 1) reduce the demand for traditional energy through 
conservation and energy efficiency; and 2) increase the supply of 
renewable and other alternative energy sources. Investments that curb 
demand are the most cost-effective way to improve an installation's 
energy profile.
    2. In addition to being well situated to support energy 
conservation and efficiency projects, DOD installations can be used as 
test beds for next generation technologies coming out of laboratories 
in industry, universities, and the Department of Energy. The 
Department's built infrastructure is unique for its size and variety, 
reflecting the diversity of building types and climates throughout the 
United States. For a wide range of energy technologies, the Department 
can play a crucial role by filling the gap between research and 
deployment. For technologies that prove effective, the Department can 
go on to serve as an early customer, thereby helping create a market. 
This will allow the Department to leverage both the cost savings and 
technology advances that private sector involvement will yield. The 
Department is pursuing the energy test bed approach on a small scale 
through the Environmental Security Technology Certification Program 
(ESTCP). We hope to expand it, working closely with the Department of 
Energy and other agencies and organizations. The FY11 budget is only 
the first step toward implementing the QDR, a foundation document that 
will guide development of future budgets as well. This means we will be 
making additional investments in Program Objective Memorandum-12 and 
beyond as the renewable energy and smart grid technology matures. 
Demonstrations being performed under the Net Zero Joint Concept 
Technology Demonstration, and the Marine Corps EXFOB (Example Forward 
Operating Base), are focused efforts to introduce renewables and smart 
grid technologies, in conjunction with existing generators, in 
operational settings. These are methodical, prudent efforts to create 
the right mix of reliable technologies that will help take convoys off 
the road and make U.S. forces more secure.
    3. The Department has made wide use of third-party financed energy 
conservation projects accomplished through vehicles such as Energy 
Savings Performance Contracts (ESPCs) and Utility Energy Services 
Contracts (UESCs), which allow the Department to use industry funding 
to pay for new energy-related equipment to reduce life cycle costs of 
facilities and pay it back from the accrued energy savings. ESPCs and 
UESCs typically generate 15-20% of all facility energy annual savings 
that the Department realizes. Use of ESPC and UESC for 2009 reached an 
award value of $258 million. DOD annual energy savings from these 
contracts are expected to reach nearly 1.2 billion BTUs, which, 
although significant, represent slightly more than one-half of one 
percent (0.5%) of DOD's annual consumption. From 2003-2009, third-party 
financed energy contract awards totaled $1.74B. The Department can 
build on this progress by increasing the use of third-party financed 
contracts, enabling more cost-effective, long-term facilities operation 
and maintenance with no upfront costs. Third-party financed contracts 
are a valuable tool in our ``energy tool box'' towards reduced energy 
demand. The Department is very happy with energy savings performance 
contracts as they are valuable financing tools and contracts designed 
to make ESPCs as practical and cost-effective as possible for Federal 
agencies. The Department is continuing annual energy auditing to 
identify and establish facilities' energy requirements. ESPC contract 
vehicles will be utilized to bring solutions for many of those 
requirements and assist the Department towards annual energy intensity 
reductions. The Department appreciates the continued support the 
Congress has provided to third-party energy financing contracts.
    4. It is as difficult to predict where the Department's energy 
profile will be in 20 years as it would be to make such a prediction 
for the United States as a whole. One strong indicator of success in 20 
years will be whether or not energy, and its related factors of 
unrefueled range and logistics tail mitigation, are as significant 
considerations as the more mainstream factors of lethality, speed, and 
crew protection in designing U.S. forces' equipment. Some of the 
significant milestones for the Department, looking out over the next 20 
years, are the maturation and full implementation of the Energy 
Efficiency KPP and the development of a methodology for determining the 
Fully Burdened Cost of Fuel applicable across all Military Departments. 
Another key milestone will be integration of energy considerations, at 
the tactical, operational, and strategic level, into our analytic 
agenda. We need to do that in order to develop the analytic capital to 
support incorporating energy considerations in the tradespace when we 
make next generation weapon system decisions.
    Ms. Giffords. Under current projections, there continues to be a 
gap in the Air National Guard, even under the most optimistic 
projections. In the next 7 years, the Air Guard will lose 80% of its 
fighter aircraft to attrition and close 13 Fighter Wings unless the 
Department acts now. Last year we were promised a plan for 
recapitalizing the Air National Guard's fighter fleet but neither the 
budget nor the QDR appear to contain one. 1. What is the long-term 
strategic plan for maintaining the fighter expertise in the Air Guard? 
2. The timeline for JSF and the timeline for aircraft retirements leave 
a multi-year gap. How does the Department plan to fill that gap with 
the required number of manned fighter aircraft and under the current 
realities of the F-35 program? 3. We were also promised a comprehensive 
report on the Air Sovereignty Alert mission. What is the Department's 
long-term plan for resourcing ASA? 4. In determining the overall force 
structure for Air Force fighters laid out in this report, what criteria 
did the Department use to arrive at its final number set? 5. Did the 
Department make any determinations on apportioning capabilities and 
missions between the Active and Reserve components? 6. Assuming that 
Reserve Component forces are less costly, as they normally have been, 
is the Department prepared to adjust the total top line number of 
fighter based on cost savings that could be realized by apportioning 
more aircraft to the Guard and Reserve?
    Secretary Flournoy. The Air Reserve Component made up of the Air 
National Guard and Air Force Reserve, and the Active Duty Air Force are 
full partners in the Air Force's Total Force concept, providing 
critical capabilities for the Joint Warfighter across the full spectrum 
of conflict. Today the Air Reserve Component flies some of the newest 
and also some of the oldest fighter aircraft in the Air Force 
inventory. The FY10 budget retired 257 of the Air Force's oldest 
fighter aircraft and recapitalized a number of Air Reserve Component 
units with newer and more capable 4th generation fighters from the 
active inventory. In FY11, F-22s will be delivered to the combined 
Active and Reserve Component wing in Honolulu, Hawaii. Similar F-22 
wings already exist at Langley Air Force Base, Virginia, Holloman Air 
Force Base, New Mexico, and Elmendorf Air Force Base, Alaska. As the F-
35 is delivered to both the Active and Reserve Components, additional 
4th generation aircraft will become available to recapitalize older Air 
Reserve Component fighters.
    The 30-year Aviation Plan, which DOD has provided to Congress, 
provides the Department's current long-term plan for fighter forces. In 
addition to this, there are currently a number of congressional reports 
addressing Air Reserve Component fighter force structure that are being 
staffed within the Department. I expect that these reports will be 
complete within the next few months.
    The FY11 President's Budget reflects a complete review of Air Force 
fighter requirements. These requirements were developed based on a 
thorough examination of the current and future strategic environment. 
The Department determined there were minimal impacts on Air Reserve 
Component Homeland Defense missions, other flying missions, and overall 
pilot and maintenance capability.
    During the past two decades, the Air Reserve Component has borne a 
significant portion of the burden imposed by forward deployed 
operations. The Air Reserve Component's ability to provide forces at a 
reduced operating cost is directly tied to the Active Component's on-
going investment in the Air Force-wide equipment, modernization, and 
training pipeline. Historically, the ratio between Active and Air 
Reserve Component aircraft has not exceeded a 60/40 mix. If the Air 
Reserve Component grows beyond 40% of the total Air Force, 
sustainability and potential cost benefits diminish. At the end of 
FY11, the percentage of Air Reserve Component combat-coded fighter 
aircraft is projected to be 42% of the total combat-coded fighter 
force.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. The QDR highlights the Department of Defense's efforts 
to rebalance U.S. military capabilities to emphasize flexibility of the 
force, with increased focus on ``enabling'' systems. The focus on 
enabling systems, such as Intelligence, Surveillance, and 
Reconnaissance (ISR) Programs, Unmanned Aerial Vehicles (UAVs), 
electronic attack systems, and enhanced cyber defensive and offensive 
capabilities, will significantly enhance the ability of U.S. forces to 
protect and advance National Interests.These new enabling technologies 
not only contribute to our ability to execute full-spectrum operations, 
but also greatly enhance force protection. Developing unmanned, 
remotely operated, or electronic capabilities is, I believe, important 
to our National Defense. But I also believe that developing policies of 
employment are equally important. As DOD develops more and more 
capabilities to act remotely, how are you ensuring that these 
capabilities are being employed lawfully? Is there a joint doctrine for 
employment of UAVs or is each service responsible for developing their 
own? How does DOD ensure that nation-state sovereignty or international 
laws are not violated as U.S. forces employ remotely operated systems--
both for ISR missions and bombing missions?
    Secretary Flournoy. The Joint Concept of Operations for Unmanned 
Aircraft Systems (UAS) establishes joint guidance, considerations, and 
concepts for optimum UAS employment across the range of military 
operations. Additionally, specific UAS employment considerations are 
addressed in more detail in the areas of command and control (C2), 
interoperability, airspace management, and coalition participation.
    Lawful operation of any military capability, manned or unmanned, in 
international or sovereign airspace, rests primarily with our combatant 
commanders who employ force as necessary to meet mission requirements 
in accordance with orders and guidance approved by the Secretary of 
Defense, including Rules of Engagement (ROE) that comply with 
applicable requirements of U.S. and international law. UAVs are 
operated under such lawful orders, guidance, and ROE--as other military 
platforms. Although strikes may be conducted using UAVs, those strikes 
are under the control of the UAV's remote human operator.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. NYE
    Mr. Nye. Under Secretary Flournoy, as you might expect, I was quite 
disappointed to see that the QDR included the recommendation that the 
Nation invest upwards of $1 billion to establish a redundant East Coast 
homeport for nuclear carriers. Coming just 4 years after a 2005 BRAC 
round in which the Navy was unable to close as many installations as it 
had recommend, the QDR suggests that it makes sense for the Navy to 
build a fifth nuclear carrier homeport in the United States, even as 
the carrier fleet is reduced to its lowest level in decades. Secretary 
Flournoy, I would appreciate hearing your perspectives on why such an 
investment makes sense in an era of unprecedented federal deficits, a 
national debt of about $14 trillion, major shortfalls in key defense 
programs such as shipbuilding and maintenance accounts, and signs that 
various acquisition programs that are critical to our Nation's military 
capabilities--such as the F-35--are experiencing substantial cost 
increases that could devour enormous portions of future military 
budgets.
    Secretary Flournoy. Nuclear-powered aircraft carriers are one of 
this Nation's most valuable strategic assets. Whereas in the Pacific 
they are based at three locations, in the Atlantic these assets and 
their associated nuclear maintenance facilities are currently 
homeported at a single location. In the QDR, the Department concluded 
that the strategic benefit of dispersing aircraft carriers and nuclear 
maintenance facilities across the East Coast outweighs the costs to 
upgrade Mayport. The decision to homeport, and not just create an 
alternate East Coast port, provides the additional nuclear maintenance 
facility necessary to reduce the risk to our being able to sustain our 
East Coast carrier fleet from any large magnitude event, such as a 
terrorist attack, accident, or natural disaster. The cost of this 
effort is expected to be approximately $500 million and will take about 
eight years. It is the Department's view that this investment in risk 
mitigation is prudent, representing approximately 10% of the cost of a 
single carrier, or about 1% of the value of the carrier fleet.
    Mr. Nye. I would appreciate hearing about the evolution of the QDR 
homeporting recommendation. According to a December 3 draft version of 
the document that was widely circulated by the media, the 
recommendation at that time was to ``provide an alternative port to 
dock East Coast aircraft carriers to mitigate the risk of a manmade or 
natural disaster.'' That recommendation appears to suggest making the 
minimal investments necessary to build alternative docking capacity, 
but to hold back from spending hundreds of millions of dollars more in 
investments necessary to maintain carriers at Mayport, or from 
incurring the many operational inefficiencies that will result in 
nuclear workforce, carrier airwing transport, and support ship 
movements that would result from homeporting a carrier in Mayport. I am 
also aware of a late December draft of the QDR that recommended 
homeporting a carrier in Mayport, but did not include the investment 
into maintenance facilities. And then, of course, the final QDR 
recommends homeporting and maintenance facilities at Mayport--and the 
Navy FYDP includes more than $200 million for those purposes, an amount 
that does not even reflect the complete costs of the effort. So, it 
appears that the homeporting recommendation changed greatly from early 
December--can you explain this evolution from a recommendation that had 
all of the strategic benefits at a fraction of the cost and operational 
challenges into one that presents substantial operational and financial 
costs but minimal strategic benefits?
    Secretary Flournoy. The QDR went through numerous drafts and 
revisions over many months before it was officially released in 
February. All versions prior to the February release were staff drafts 
only. From June through August 2009, the QDR Global Posture Issue Team, 
which included senior officials from the Office of the Secretary of 
Defense, the Joint Staff, and the Department of Navy, analyzed the 
issue. In the fall, Secretary Gates and senior Departmental leadership 
reviewed and approved the QDR recommendation to support homeporting a 
nuclear-powered aircraft carrier in Mayport, Florida. The rationale 
supporting this decision rests on strategic dispersal and the security 
of our Atlantic carrier fleet in the event of a terrorist attack, 
accident, or natural disaster.
    Mr. Nye. In your testimony you stated ``the Secretary--together 
with Admiral Mullen--took action to direct resources away from lower-
priority programs and activities so that more pressing needs could be 
addressed. Can you please tell me what lower priority programs just 
missed the cut to be included in QDR? Your Direct Quote from testimony: 
``Early in the QDR and in the course of the process of completing DOD's 
budget submission for FY 2010, the Secretary--together with Admiral 
Mullen--took action to direct resources away from lower-priority 
programs and activities so that more pressing needs could be addressed, 
both within that budget and in the years that follow it.''
    Secretary Flournoy. To support increases in needed capabilities, 
the Department's leadership identified areas where the Department could 
assume increased risk and take reductions. For example, reductions were 
taken in the Future Combat Systems, F-22, and Presidential helicopter 
programs. The Secretary also terminated under-performing programs, 
including DIMHRS and the Net Enabled Command and Control program. 
Finally, DOD proposes to conclude production of the C-17 aircraft, 
having completed the planned procurement of those aircraft.
    Mr. Nye. Yesterday, Admiral Mullen testified that the idea of 
strategic dispersal that applies to East Coast carriers also applies to 
other singularly based assets including, for example, submarines 
equipped with nuclear weapons at Kings Bay or long range bombers. Do 
you agree with this assessment? Then would it be accurate to say that 
the DOD will look to disperse other grouped assets or singularly placed 
infrastructure?
    Secretary Flournoy. I agree that strategic dispersal is an 
important concept to protect the Nation's strategic assets. The 
Military Departments continuously assess risks to the force, consistent 
with their Title 10 responsibilities, and take risk mitigation 
measures, such as strategic dispersal, when appropriate. The QDR Report 
makes clear that in key regions, U.S. forces will need to have access 
to networks of bases and supporting infrastructures that are more 
resilient than today's in the face of attacks by a variety of means. 
Redundancy and dispersal concepts are critical concepts we are 
exploring in our ongoing global posture review.
    The decision to homeport, and not just create an alternate East 
Coast port, provides the additional nuclear maintenance facility 
necessary to reduce the risk to our East Coast carrier fleet from any 
large magnitude event, such as a terrorist attack, accident, or natural 
disaster.
    Strategically dispersing carrier homeports on the East Coast 
provides a more equivalent risk reduction to that afforded the Pacific 
carrier fleet, which is strategically dispersed to homeports in 
Washington, California, and Japan.
    The analysis on East Coast carriers led to the conclusion that the 
strategic benefit of dispersing aircraft carriers and nuclear 
maintenance facilities along the East Coast outweighs the costs to 
upgrade Mayport. A similar cost-benefit analysis would be applied in 
any future decisions to disperse key assets strategically.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. KISSELL
    Mr. Kissell. The QDR outlines the need to ``Succeed in 
Counterinsurgency, Stability, and Counterterrorism''. Within the models 
and scenarios you used to plan for military operations other than two 
simultaneous conventional wars, did your calculations address our need 
to surge in both Iraq and Afghanistan? Is the force able to sustain two 
major counterinsurgency operations as we see today while fighting other 
scenarios you used during your war games prior to publishing the 2010 
QDR? Additionally, we have repeatedly heard about a need to increase 
the number of civilians involved in the counterinsurgency effort. We 
know that civilians are training the police, incorporating supply 
systems, partnering with government officials, and working in the 
industrial sector. These are just a few examples of the areas civilians 
are contributing, but as we know, our war fighters are also performing 
many of the same duties in some degree. Often, our young sergeants, 
lieutenants, and captains are serving in roles far beyond their scope 
of understanding in an effort to get the job done. I am impressed with 
their efforts and applaud their versatility; however, we need more to 
allow our war fighters to focus on security operations. In the Succeed 
in Counterinsurgency, Stability, and Counterterrorism section of the 
QDR you include one sentence acknowledging the use of civilians. The 
sentence states, ``The Department is also exploring ways to better 
integrate civil affairs functions with complementary stability 
operations activities, such as those of Provincial Reconstruction Teams 
and Human Terrain Teams deployed in Iraq and Afghanistan.'' What steps 
are being taken now, so that in the future we are not asking our young 
combat officers and non-commissioned officers to secure areas as well 
as serve partner with government officials, supervise the repair of 
water treatment plants, and determine if a contractor is building a 
school or a bridge to specifications. If you are using Afghanistan and 
Iraq to model future counterinsurgencies and if the lessons from both 
theaters should be adopted into doctrine, are you emphasizing a robust 
partnership between the Department of Defense and the Department of 
State? Please explain the Department's exploration into ways to better 
integrate. I would like to remain aware of your efforts and any final 
decisions that are made.
    Secretary Flournoy. The Iraq and Afghanistan surge and post-surge 
periods were accounted for in the analysis. The QDR report describes 
two broad periods, near- to mid-term, taking into account continuing 
combat activities in Iraq and Afghanistan; and the mid- to long-term, 
which takes into account the decrease in combat activities in and 
drawdown of forces from Iraq. It is in this second period that multiple 
combat operations beyond the current counterinsurgency operations were 
analyzed, recognizing the current demand on U.S. forces.
    DOD recognizes that whole-of-government approaches are fundamental 
to the success of counterinsurgency (COIN) campaigns. Secretary Gates 
has voiced strong support for building the capacity of civilian 
capabilities within the U.S. Government. Consistent with this guidance, 
the ``Strengthening Interagency Partnerships'' section of the QDR 
Report notes that, ``the Department will continue to work with the 
leadership of civilian agencies to support the agencies' growth and 
their operations in the field, so that the appropriate military and 
civilian resources are put forth to meet the demands of current 
contingencies.'' To that end, the Department included interagency 
partners in its QDR team that looked at capabilities required for COIN 
missions. Similarly, the Department is providing support to the ongoing 
Quadrennial Diplomacy and Development and Homeland Security Reviews 
underway at the Departments of State and Homeland Security, 
respectively.

                                  <all>

</pre></body></html>
